<html>
<title> - JUSTICE FOR ALL: ACHIEVING RACIAL EQUITY THROUGH FAIR ACCESS TO HOUSING AND FINANCIAL SERVICES</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                   JUSTICE FOR ALL: ACHIEVING RACIAL
                     EQUITY THROUGH FAIR ACCESS TO
                     HOUSING AND FINANCIAL SERVICES

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2021

                               __________

       Printed for the use of the Committee on Financial Services

                            Serial No. 117-8
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-995 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
GREGORY W. MEEKS, New York           BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            STEVE STIVERS, Ohio
ED PERLMUTTER, Colorado              ANN WAGNER, Missouri
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
CINDY AXNE, Iowa                     TED BUDD, North Carolina
SEAN CASTEN, Illinois                DAVID KUSTOFF, Tennessee
AYANNA PRESSLEY, Massachusetts       TREY HOLLINGSWORTH, Indiana
RITCHIE TORRES, New York             ANTHONY GONZALEZ, Ohio
STEPHEN F. LYNCH, Massachusetts      JOHN ROSE, Tennessee
ALMA ADAMS, North Carolina           BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas
MADELEINE DEAN, Pennsylvania         WILLIAM TIMMONS, South Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   VAN TAYLOR, Texas
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
NIKEMA WILLIAMS, Georgia
JAKE AUCHINCLOSS, Massachusetts

                   Charla Ouertatani, Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    March 10, 2021...............................................     1
Appendix:
    March 10, 2021...............................................    77

                               WITNESSES
                       Wednesday, March 10, 2021

Bailey, Nikitra, Executive Vice President, Center for Responsible 
  Lending........................................................     5
Gonzalez-Brito, Paulina, Executive Director, California 
  Reinvestment Coalition.........................................     6
Robinson, Rashad, President, Color of Change.....................     8
Rowe, Ian, President and Co-Founder, Vertex Partnership Academies    11
Yang, John C., President and Executive Director, Asian Americans 
  Advancing Justice..............................................    10

                                APPENDIX

Prepared statements:
    Bailey, Nikitra..............................................    78
    Gonzalez-Brito, Paulina......................................   118
    Robinson, Rashad.............................................   135
    Rowe, Ian....................................................   140
    Yang, John C.................................................   147

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Written statement of Americans for Financial Reform..........   156
    Written statement of the Appraisal Institute.................   159
    Written statement of the California Association of REALTORS..   161
    Written statement of the Credit Union National Association...   165
    Written statement of the Economic Policy Institute...........   168
    Written statement of Groundwork Action.......................   177
    Written statement of Dr. Junia Howell and Dr. Elizabeth 
      Korver-Glenn...............................................   179
    Written statement of Liberation in a Generation..............   187
    Written statement of the Massachusetts Affordable Housing 
      Alliance...................................................   191
    Written statement of the Mortgage Bankers Association........   192
    Written statement of National ACE (Asian/Pacific Islander 
      American Chamber of Commerce and Entrepreneurship).........   195
    Written statement of the National Association of Investment 
      Companies..................................................   198
    Written statement of the National Association of REALTORS....   208
    Written statement of the National Bankers Association........   211
    Written statement of the National Community Stabilization 
      Trust......................................................   214
    Written statement of the National Consumer Law Center et al..   216
    Written statement of the National Council of Asian Pacific 
      Americans..................................................   220
    Written statement of the National Housing Resource Center....   229
    Written statement of Prosperity Now..........................   233
    Written statement of the Real Estate Valuation Advocacy 
      Association................................................   234
    Written statement of the Rev. Al Sharpton and the National 
      Action Network.............................................   235
    Written statement of the U.S. Chamber of Commerce............   236
    Written statement of the United States Hispanic Chamber of 
      Commerce...................................................   241
Foster, Hon. Bill:
    Written responses to questions submitted to Nikitra Bailey...   243
    Written responses to questions submitted to Rashad Robinson..   245
Kustoff, Hon. David:
    Written responses to questions submitted to Paulina Gonzalez-
      Brito......................................................   248

 
                   JUSTICE FOR ALL: ACHIEVING RACIAL
                     EQUITY THROUGH FAIR ACCESS TO
                     HOUSING AND FINANCIAL SERVICES

                              ----------                              


                       Wednesday, March 10, 2021

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:05 a.m., via 
Webex, Hon. Maxine Waters [chairwoman of the committee] 
presiding.
    Members present: Representatives Waters, Maloney, Sherman, 
Scott, Green, Perlmutter, Himes, Foster, Beatty, Vargas, 
Gottheimer, Gonzalez of Texas, Lawson, San Nicolas, Axne, 
Casten, Pressley, Torres, Lynch, Adams, Tlaib, Dean, Ocasio-
Cortez, Garcia of Illinois, Garcia of Texas, Williams of 
Georgia, Auchincloss; McHenry, Wagner, Lucas, Posey, 
Luetkemeyer, Huizenga, Stivers, Barr, Williams of Texas, Hill, 
Emmer, Zeldin, Loudermilk, Davidson, Budd, Kustoff, 
Hollingsworth, Gonzalez of Ohio, Rose, Steil, Gooden, Timmons, 
and Taylor.
    Chairwoman Waters. The Financial Services Committee will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    As a reminder, I ask all Members to keep themselves muted 
when they are not being recognized by the Chair. This will 
minimize disturbances while Members are asking questions of our 
witnesses. The staff has been instructed to mute Members, 
except where a Member is not being recognized by the Chair and 
there is inadvertent background noise.
    Members are also reminded that they may only participate in 
one remote proceeding at a time. If you are participating 
today, please keep your camera on. And if you choose to attend 
a different remote proceeding, please turn your camera off.
    If Members wish to be recognized during the hearing, please 
identify yourself by name to facilitate recognition by the 
Chair. I would also ask Members to be patient as the Chair 
proceeds, given the nature of conducting committee business 
virtually.
    I will now recognize myself for 4 minutes for an opening 
statement.
    Today's hearing is entitled, ``Justice for All: Achieving 
Racial Equity Through Fair Access to Housing and Financial 
Services.''
    Today, we are here to discuss steps that this committee can 
take to create justice and achieve racial equity through access 
to fair housing and financial services. But for us to even 
begin this discussion, it is very important to recognize that 
our nation's history is marked by grave injustices against 
people of color, from the enslavement of people of African 
descent to the displacement and subjugation of Native people, 
to the internment of Japanese Americans, to the exploitation 
and mistreatment of immigrants and migrant workers, to name 
some examples.
    And no matter where you are and who you are in America or 
around the world, institutional racism based on skin color 
creates barriers that impact social and economic outcomes. It 
is an unfortunate truth that such injustices persist today, 
including in the form of barriers that systemically exclude 
people and communities of color from fair access to housing and 
home ownership; from access to credit, capital, and other 
financial services; and from opportunities to lead and direct 
economic policy at the highest levels of the United States 
Government and major corporations.
    All of these barriers have drastically curtailed 
opportunities for communities of color to build wealth and 
thrive in our society. For example, a 2018 report by Reveal 
News found that, ``modern-day redlining persisted in 61 metro 
areas, even when controlling for applicants' income.'' Just 
last month, the media reported that after a Black couple 
restaged their housing to look like a White family lived there, 
the appraisal value of their home increased by 50 percent.
    A 2019 FDIC report revealed that even though unbanked rates 
are at the lowest since they started their survey in 2009, 
unbanked rates remain the highest for Black and Latinx 
households. Without access to address these and other 
disparities, the racial wealth gap will just continue to widen.
    Communities of color have seen these barriers grow stronger 
during the COVID-19 pandemic. Data shows that minority-owned 
businesses have shuttered more than their White-owned 
counterparts and have experienced more challenges accessing 
Federal financial relief. Racist hate crimes against our Asian 
neighbors have also skyrocketed during the pandemic.
    It is also unacceptable that the government leadership who 
oversees economic policy and financial regulation and corporate 
leaders are not reflective of America's racial and ethnic 
diversity, which may exclude perspectives from people of color 
who have historically been disadvantaged. There has still never 
been a Black Chair of the Securities and Exchange Commission or 
a Black Chair of the Federal Reserve Board of Governors. And in 
the early months of this year, 2 Black women have been placed 
at the helm as CEOs of Fortune 500 companies, the only 2 Black 
women among 40 women running America's largest corporations.
    So I am very pleased that members of the committee are 
putting forth legislation that, taken together, would make our 
housing and financial systems fairer and more equitable, 
including by providing down payment assistance for first-
generation home buyers, strengthening minority lending 
institutions, and requiring diverse candidate slates for senior 
positions.
    I look forward to discussing these and other measures 
today.
    And I now recognize the ranking member of the committee, 
the gentleman from North Carolina, Mr. McHenry, for 4 minutes.
    Mr. McHenry. Thank you, Chairwoman Waters.
    And let me begin by being very clear: Racism is real. We 
all know that the way to fix a problem is to acknowledge it, to 
understand it, to address it. So that is what we are going to 
try to do today within our committee's jurisdiction. Let us 
just start with the facts.
    Over the last several decades, we have seen Congress act to 
make credit and housing discrimination on the basis of race 
illegal. That is good. That is strong. That is a good start.
    And in recent years, our economic system has brought us the 
best results for Americans across-the-board. In September 2019, 
African-American unemployment reached a record low of 5.5 
percent, Hispanic unemployment dropped to 3.9 percent, and 
Asian-American unemployment dropped to 2.5 percent. We saw 
average income on the rise. We finally saw median income for 
every race rise. This isn't theoretical. This is real, tangible 
improvement.
    Let me be clear, this does not mean that every family 
benefited from these improvements, but the pre-pandemic data 
shows that there was significant improvement for communities of 
color and all communities.
    Now, a once-in-a-lifetime pandemic has erased many of these 
gains for millions of Americans. The question is, how do we 
help those most in need? In the short term, it is by getting 
Americans safely back to work, kids back to the classroom, and 
targeted COVID relief to the families who need it.
    It is not helicopter money. It is not pushing out a Biden 
stimulus package, of which only 9 percent goes to defeating the 
virus. Now we have Democrats working on their next trillion-
dollar package.
    These things are not how we should address the problem. We 
need to first understand the problem and work on solutions to 
fix it. As we exit the pandemic, we should look for long-term 
solutions to get Americans back to the prosperity they felt 
before COVID.
    It wasn't unlimited stimulus that brought us the best 
economy of our lifetimes. It was full employment. It was rising 
wages. It was freedom to choose what was best for your family. 
It was our economic system, actually the same economic system 
that many Democrats are saying is so irredeemable today.
    You don't get rid of the car when your ``check engine'' 
light comes on. You try to fix the problem. That is what we 
need to do today, is to understand the nature of the problem, 
where it is happening, where it is occurring, and look for 
solutions to fix it.
    To start, racism of any kind is unacceptable, and it should 
be rooted out anywhere it occurs. Next, we must make it our 
mission to ensure all students have access to an education that 
will set them up for success. During a recent committee markup, 
Republicans offered amendments to give money to schools that 
actually had a plan to reopen, but our Democratic colleagues 
blocked those efforts.
    We should also eliminate the barriers that keep lower-
income Americans from saving and investing in their future. 
Unfortunately, the bills Democrats attached to today's hearing 
resemble a grab bag of long health priorities rather than 
targeted solutions to address the problem. I hope that today we 
can do more listening than speaking, a lot more learning when 
we are open to hearing about the nature of the problem and the 
potential solutions.
    So, Madam Chairwoman, I look forward to the discussion 
today, and I thank you for holding today's hearing. And I thank 
the witnesses for taking time out of their busy schedules to 
help make Congress better policymakers.
    And with that, I yield back.
    Chairwoman Waters. Thank you very much.
    I now recognize the gentlewoman from Ohio, Mrs. Beatty, who 
is also the Chair of our Subcommittee on Diversity and 
Inclusion, for 1 minute.
    Mrs. Beatty. Thank you, Chairwoman Waters, for tackling 
racism in housing and financial services.
    We must do all we can to ensure that women and people of 
color have equitable access to home ownership and financial 
products and services.
    Also, thank you for your leadership in ensuring that $25 
billion in housing is included in today's American Rescue Plan. 
The statistics and research show us that we must continue to 
challenge financial institutions to provide more access to 
capital for minority- and women-owned businesses.
    The future of the United States economy depends on the full 
economic inclusion of all Americans. Diversity, equity, and 
inclusion must be at the core of our strategic plan to rebuild 
the American economy, and it continues with this hearing today.
    Thank you, and I yield back.
    Chairwoman Waters. Thank you.
    I now recognize the ranking member of the Diversity and 
Inclusion subcommittee, Mrs. Wagner, for 1 minute.
    Mrs. Wagner. Thank you, Madam Chairwoman.
    As the ranking member of the Subcommittee on Diversity and 
Inclusion, Chairwoman Beatty and I have spent the past 2 years 
on this committee seeking to ensure that low-income families 
have access to the formal banking system so that they can 
support their families by saving and investing.
    As childcare and higher education costs skyrocketed above 
the rate of inflation, home prices became far more expensive 
than even 2 decades ago, and interest rates fell, we must 
partner together to address these challenges, lower costs, and 
help families thrive. Access to safe and affordable financial 
services is critical, especially among families with limited 
wealth, whether they are looking to invest in education, start 
a business, or simply to manage the ups and downs of life.
    I thank you for this hearing. I look forward to hearing 
from our witnesses, and I yield back.
    Chairwoman Waters. Thank you very much.
    I want to welcome today's distinguished witnesses to the 
committee: Nikitra Bailey, who is the executive vice president 
of the Center for Responsible Lending; Paulina Gonzalez-Brito, 
who is the executive director of the California Reinvestment 
Coalition; Rashad Robinson, who is the president of Color of 
Change; John C. Yang, who is the president and executive 
director of Asian Americans Advancing Justice; and Ian Rowe, 
who is the president and co-founder of Vertex Partnership 
Academies.
    Each of you will have 5 minutes to summarize your 
testimony. You should be able to see a timer on your screen 
that will indicate how much time you have left, and a chime 
will go off at the end of your time. I would ask you to be 
mindful of the timer and quickly wrap up your testimony if you 
hear the chime. And without objection, your written statements 
will be made a part of the record.
    Ms. Bailey, you are now recognized for 5 minutes to present 
your oral testimony.

 STATEMENT OF NIKITRA BAILEY, EXECUTIVE VICE PRESIDENT, CENTER 
                    FOR RESPONSIBLE LENDING

    Ms. Bailey. Good morning, Chairwoman Waters, Ranking Member 
McHenry, and committee members. Thank you for the opportunity 
to testify for today's hearing.
    I am an executive vice president of the Center for 
Responsible Lending, an affiliate of Self-Help, one of the 
nation's largest community economic development institutions.
    The reckoning on racial injustice continues in our country 
today. Our nation's discriminatory housing policies are at the 
root of many of the systemic injustices that have sparked so 
many people-led protests. Our nation's economic structure was 
derived from forceful lien dispossession, slavery, Jim Crow, 
redlining, predatory lending, and now COVID-19. From the 
Homestead Act of 1862 to New Deal housing policies, economic 
subsidies were created for White families, and the Federal 
Government subsidized the mass production of suburbs, while 
builders and restrictive covenants barred Black Americans and 
other people of color from purchasing homes.
    White Americans have been handed an unjust advantage in 
amassing wealth and in building a financial cushion that 
enables them to weather financial storms. This structural and 
historic discrimination left families of color more vulnerable 
going into the 2008 housing crisis, and that crisis and the 
response to it left them even worse off.
    Black and Hispanic communities lost over $1 trillion of 
wealth during the Great Recession because the help came too 
late, well after foreclosures unnecessarily devastated 
neighborhoods. This crisis is likewise hitting these families 
the hardest again, and the response so far is neither equitable 
nor sufficient. Most important, we have to address the long-
time structural flaws that produced and perpetuate this 
inequity.
    Discrimination is a drag on the economy. It costs trillions 
of dollars and delays economic growth. Studies show that the 
economy can actually grow by $1 trillion per year, create 
thousands of jobs, and generate $400 billion in tax revenues if 
discrimination is addressed. Much work remains in the financial 
services industry to ensure equity for Black and Brown 
communities.
    The system's success depends on equitable treatment for 
families long denied access, especially in the mortgage market. 
Today's mortgage market serves only the wealthiest of 
borrowers, despite ongoing support from the Federal Reserve 
with purchases of $40 billion in agency mortgage-backed 
securities for months. Hard-working families, many of whom are 
employed as essential workers and have placed their lives on 
the line during the pandemic, are unable to refinance their 
mortgages and lower their monthly payments to offset COVID 
losses.
    Families are being crushed under the weight of student loan 
debt, with Black families seeing their debt increasing 
significantly post-graduation, and Hispanic students more 
likely to rely on private loans and to drop out before 
completing their education.
    The Paycheck Protection Program (PPP) is likely to amount 
to one of the greatest taxpayer-funded wealth transfers in the 
history of the nation, as the first-in-line nature of the 
program excluded many small businesses of color from the 
initial round of $350 billion in funding, raising significant 
fair lending concerns about the program's structural defects.
    A new social contract is necessary to allow today's 
essential workers to thrive. Policies need to include a 
restorative justice home ownership program that targets down 
payment rates to first-generation home buyers who are 
disproportionately Black and Brown, increasing the supply of 
affordable housing for low- to moderate-income home buyers, and 
the availability of small-dollar mortgage loans.
    Also, strengthening the GSE affordable housing goals. 
Fannie Mae and Freddie Mac have woefully unfulfilled their 
statutory obligations to ensure adequate mortgage opportunities 
in communities of color.
    Further, we need to fully enforce our nation's fair lending 
laws, as they are the engines that can ignite the economy due 
to use of special purpose credit programs that can help lenders 
reach underserved borrowers. We need to address the burden of 
student loan debt, starting with the cancellation of $50,000 
per student.
    And then, we also need to make sure that the Paycheck 
Protection Program, which will expire at the end of March, is 
extended to enable many of the very smallest of small 
businesses to get the chance to get full loans under the 
recently-fixed Schedule C solution.
    There are many lessons that our past has taught us. Chief 
among them is that if we want to reach the ceiling, we have to 
lift up the floor. Action is needed now so that our children 
are free of discrimination's burdens.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Bailey can be found on page 
78 of the appendix.]
    Chairwoman Waters. Thank you very much, Ms. Bailey.
    Ms. Gonzalez-Brito, you are now recognized for 5 minutes to 
present your oral testimony.

   STATEMENT OF PAULINA GONZALEZ-BRITO, EXECUTIVE DIRECTOR, 
               CALIFORNIA REINVESTMENT COALITION

    Ms. Gonzalez-Brito. Thank you, Chairwoman Waters, Ranking 
Member McHenry, and members of the committee, for the 
invitation to join you today in this important hearing.
    Good morning. My name is Paulina Gonzalez-Brito, and I am 
the executive director of the California Reinvestment 
Coalition. I am Purepecha, Mestiza, Chicana. My people come 
from the original people of the Michoacan and Zacatecas, 
Mexico.
    My abuelito--my grandfather--was born in the U.S., and 
repatriated to the U.S. after being deported from Arizona in 
the 1930s. He was then lucky enough to buy a home in Southeast 
Los Angeles. The neighborhood where he bought a home was 
designated yellow in the HUD redlining maps, which was used to 
indicate areas that were, ``under threat of infiltration by 
Mexicans.'' We were the Mexicans they were worried about.
    Over time, as more Mexicans moved in, that yellow area was 
zoned industrial. A Chevron oil plant is now located just a 
couple of blocks from my abuelito's home.
    The U.S banking system has failed Black, Indigenous, and 
people of color. This failure is not an accident, but a 
deliberate structural and systemic design. The myth of personal 
agency and bootstraps easily falls apart when we begin to look 
closely. You see, some of us don't have bootstraps. They were 
cut off when we were denied intergenerational wealth through 
historical redlining, which has resulted in a White home 
ownership rate 30 points higher than Black home ownership 
rates, and 26 points higher than Latinx home ownership rates. 
Yet our people, like my abuelito, persisted.
    And if some of us choose to take out a loan to buy some 
bootstraps to pull ourselves up during a time of crisis, we 
face more barriers. A study released recently found that 
predominantly Latinx neighborhoods in Los Angeles, which were 
especially hard hit by COVID, received $367 in PPP loan money 
per resident, compared to $666 per resident in White 
neighborhoods. Yet against all odds, Latinx small businesses do 
all they can to keep their doors open.
    Some of us had our bootstraps stolen off our feet through 
the subprime mortgage crisis. Latinx and Black households 
experienced a loss of wealth far greater than White households. 
The wealth made up of millions of foreclosed homes, homes that 
once belonged to families, were then transferred to Wall Street 
corporations.
    Now, the largest corporate landlords control more than 2 
million apartment units across the United States. These 
corporations have amassed $300 billion for the prospect of 
purchasing pandemic-hit real estate and have filed to evict 
more than 16,000 people in the first 2 months of 2021.
    Black and Brown families and small businesses who tend to 
have less wealth to absorb the economic crisis will face higher 
rates of eviction and permanent closure. So, what to do? Well, 
it is going to take more than taking a knee.
    Race-conscious quality is the solution, starting with the 
Community Reinvestment Act (CRA). The CRA came into being to 
directly address the racist history of redlining, but it has 
been interpreted to focus only on income. To finally address 
redlining as was intended, the CRA must evaluate how and if 
banks are meeting credit and financial service needs by race 
and ethnicity.
    Additionally, all financial institutions should be subject 
to periodic racial equity audits. These audits should analyze 
the following: diversity hiring, mitigation, and reparation 
efforts for discrimination and harm inflicted upon communities 
of color; whether bank lobbying efforts advance or impede 
racial equity; and if banks are supporting the political 
fortunes of White supremacists.
    We also need to increase housing security. Federal agencies 
and banks should develop policies that prioritize home 
preservation, but where foreclosures cannot be avoided, they 
should favor property donations or discounted sales to 
community land trusts and nonprofit affordable housing 
developers instead of Wall Street.
    We should rehabilitate the weakened Home Mortgage 
Disclosure Act (HMDA) so that we know if banks are lending to 
people of color. And similarly, we need to advance their 
lending by securing a strong Section 1071 small data collection 
rule. And to fight discrimination effectively, we need strong 
fair housing and fair lending rules and enforcement by the 
CFPB, HUD, the DOJ, and the banking agencies, utilizing 
disparate impact analysis.
    Lastly, we need to bank the unbanked and underbanked. The 
big banks have shown they won't do it, so now we must promote 
public and postal banking to fill this critical gap. We must 
demand that the financial system take responsibility for 
compounding racial harm perpetuated by the financial system, 
where every indignity and offense exacerbates preexisting 
indignities and offenses. To not do so continues to allow it to 
predetermine outcomes for Black, Indigenous, and people of 
color.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Gonzalez-Brito can be found 
on page 118 of the appendix.]
    Chairwoman Waters. Thank you, Ms. Gonzalez-Brito.
    Mr. Robinson, you are now recognized for 5 minutes to 
present your oral testimony.

    STATEMENT OF RASHAD ROBINSON, PRESIDENT, COLOR OF CHANGE

    Mr. Robinson. Good morning, Chairwoman Waters, Ranking 
Member McHenry, and members of the committee. Thank you for the 
opportunity to testify today.
    This hearing concerns one of the most enduring challenges 
this nation faces, making racial justice a priority and a 
reality in both our economic and political systems.
    My name is Rashad Robinson, and I am the president of Color 
of Change, the nation's largest online racial justice 
organization, driven by over 7 million members. From Silicon 
Valley and Hollywood to Wall Street and the halls of Congress, 
we work to move leaders in both corporations and the government 
to create a more just, humane, and less hostile world for Black 
people and all people in America.
    Inequality isn't unfortunate like a car accident. 
Inequality is unjust because it is manufactured. It is 
manufactured by corporate practice and government policy and by 
a culture of racism that we too often accept rather than 
challenge.
    I am the descendant of enslaved people who eventually 
became sharecroppers and land owners in rural Virginia before 
some headed North during the great migration, trading one form 
of racial injustice for another. Redlining, bank 
discrimination, and so much more are part of my family's story.
    Over the last year, we saw how racial justice served as a 
powerful force in bringing people together. The majority of 
Americans now believe that racial justice is an important 
marker of well-being, and they are now demanding that people in 
power focus on it.
    I want to be clear, however, that racial justice is not 
just the hot topic of today. It is the code to unlocking the 
best future for all of us and every community. Whenever we hold 
on to racism and its legacy in government and society, we hold 
everyone in this country back.
    We are in a vicious cycle that we can and must break. 
Racism leads to disaster for Black people and the whole 
country, and then the racism that defines the response to the 
disaster only serves to drive up inequality, reinforce bias 
across society, and set up the very next disaster. The COVID-19 
pandemic further exposes systemic racial inequalities that 
exist in America's financial system, making it even harder for 
Black-owned businesses to compete.
    Last year, Color of Change partnered with other 
organizations to conduct several widely reported studies that 
examine how the so-called relief for small businesses was 
racially discriminatory. The study showed that not only did 
banks practice widespread discrimination and leave Black 
businesses out to dry, but by doing so, they essentially forced 
Black businesses to subsidize the recovery for White business 
owners at their own expense. And the government enabled them to 
do it.
    This wasn't just Black people being forced to drink at a 
different water fountain. There was no second water fountain 
for Black business owners at all. You might ask yourself how 
the banks were able to get away with this. It is simple. Under 
our current financial system, the banks get to pick and choose 
their favorite borrowers and move them to the front while no 
one is watching. This is how America still works right now.
    Black people are set up to fail and then blamed for their 
failure. And when a few people do succeed, their success is 
cited as evidence that there is nothing wrong. So even our 
success is used against us to justify policies, practices, and 
systems that continue to set people up to fail.
    That is why we recommend that Congress adopt a racially 
just policymaking approach when evaluating and determining 
which laws and regulations to enact, implement, or revoke. A 
racially just policy approach requires three things.
    First, we need resources to move money to Black people to 
achieve equity. Our study found that the majority of Black and 
Latinx small business owners said that direct grants would be 
most beneficial to them.
    Second, for progress to be realized, it is essential that 
every policy that distributes Federal dollars is evaluated and 
measured for its impact on racial equity.
    And finally, racially just policymaking requires strong 
commitment to enforcement. Having nondiscriminatory lending 
laws is meaningless when there is no one to stop the banks from 
engaging in modern-day redlining to deny Black people home 
ownership.
    Thank you for this opportunity to testify today. I look 
forward to the questions about the most effective ways to end 
racism that defines so much of people's lives in our country 
and is holding all of us in our country back.
    [The prepared statement of Mr. Robinson can be found on 
page 135 of the appendix.]
    Chairwoman Waters. Thank you, Mr. Robinson.
    Mr. Yang, you are now recognized for 5 minutes to present 
your oral testimony.

 STATEMENT OF JOHN C. YANG, PRESIDENT AND EXECUTIVE DIRECTOR, 
               ASIAN AMERICANS ADVANCING JUSTICE

    Mr. Yang. Thank you very much, Chairwoman Waters, and thank 
you to Ranking Member McHenry and the members of this 
committee. I appreciate the opportunity to testify before all 
of you.
    My name is John Yang. I am the president and executive 
director of Asian Americans Advancing Justice (AAJC).
    Specifically, I want to talk about the special challenges 
facing the Asian American and Pacific Islander community. In 
discussing these issues, it is important to understand what our 
community is and what our community is not.
    The Asian American and Pacific Islander community is not a 
monolith. It encompasses over 50 different ethnicities and over 
100 different languages. Our community includes social and 
economic indicators that defy the norm, and principal among 
that is income disparity.
    Now, while income inequality has grown in the United States 
over the past 50 years, this experience is particularly acute 
for Asian Americans. And here, I want to dispel the model 
minority myth that all Asian Americans are doing well and are 
leading with respect to economic indicators.
    It is certainly true that for certain Asian Americans, the 
income distribution has shown great growth with respect to 
Asian Americans and defies most norms at a level that is 
unequal or above all other racial groups. But at the same time, 
if you disaggregate that data, it is also true that certain 
Asian Americans are at the lowest end of that growth that we 
have seen in the past 50 years. Stated differently, our 
community has become further polarized in terms of that wealth 
gap.
    Often lost in this broad brush used to paint Asian 
Americans are the inequities created by language access. Nearly 
two-thirds of Asian Americans are immigrants, and over 50 
percent of Asian Americans have limited English proficiency. So 
even prior to the pandemic, limited English proficient 
individuals had limited employment opportunities and often had 
difficulty navigating housing and financial services.
    During the pandemic, we have heard many stories of people's 
inability to access unemployment benefits. These access issues 
were compounded for people with limited English proficiency. 
Furthermore, information about relief programs was slow to be 
relayed to the limited English proficient population, if it was 
relayed at all. Very few funds from the Coronavirus Aid, 
Relief, and Economic Security (CARES) Act and from PPP were 
dedicated to multilingual services beyond English and Spanish.
    Asian-American communities need to know about services that 
are available to them and that language support is available to 
help them access these essential government services. Just as 
we need to dismantle barriers that limit opportunities of 
people with physical disabilities, we need to dismantle 
barriers that limit opportunities because of language 
proficiency.
    Look, the lives and livelihoods of Asian Americans, just as 
all Americans, have been hit hard because of COVID-19. For 
example, in New York City, in a report issued by our community 
partner Asian American Federation New York, the pandemic has 
created record job losses for Asian Americans, with a 6,000 
percent increase in unemployment benefit applications in 
February through June of 2020.
    Asian Americans suffered the largest increase in 
unemployment amongst all racial groups, going from 3.4 percent 
in February 2020 to over 25 percent in May 2020. Compounding 
these devastating health and financial impacts is the onslaught 
of anti-Asian hate that we have seen, directing racial 
harassment and violence toward Asian Americans who are wrongly 
blamed for COVID-19 and wrongly blamed for this pandemic.
    Now, while hate incidents have targeted our community over 
this past year, we know that this is something that our 
communities have lived with for a long time. In this past year, 
over 4,000 hate incidents targeting Asian Americans have been 
reported to groups like ours and a group in Californica called 
Stop AAPI Hate.
    And certainly, racist rhetoric, use of terms such as, 
``kung flu,'' have poured fuel on the fire of anti-immigrant 
and anti-Asian sentiment during this time. Certainly, we 
welcome those who have condemned anti-Asian hate and violence, 
and we look forward to working with journalists, industry, and 
policymakers such as you to denounce this racism that we have 
seen.
    This has impacted every aspect of our life in the Asian-
American community. There were 105 reports of anti-Asian 
incidents reported to the New York Commission on Human Rights, 
including reports of housing discrimination, discrimination in 
public accommodation, and harassment during this past period.
    A McKinsey report said that misguided fears about the virus 
effectively shuttered businesses in many Asian-American 
cultural districts a full month before the lockdowns began 
nationwide. Asian-American businesses are overrepresented in 
some of the sectors that have suffered the worst economic 
effects of the pandemic, including with respect to 
accommodations, food service, retail, and education services. 
So we call on policymakers to enact long-term institutional 
change, to address not only the crisis at hand, but to focus on 
changing the systems and the environment that have allowed 
these inequities to thrive.
    We look forward to working with all of you. Thank you very 
much for this opportunity, and I look forward to your 
questions.
    [The prepared statement of Mr. Yang can be found on page 
147 of the appendix.]
    Chairwoman Waters. Thank you, Mr. Yang.
    Mr. Rowe, you are now recognized for 5 minutes to present 
your oral testimony.

 STATEMENT OF IAN ROWE, CO-FOUNDER AND CEO, VERTEX PARTNERSHIP 
                           ACADEMIES

    Mr. Rowe. Good morning. Thank you, Chairwoman Waters, 
Representative McHenry, and all of the distinguished members of 
the Committee on Financial Services.
    My name is Ian Rowe, and I submit my testimony today as a 
proud product of the New York City public school system from 
kindergarten through twelfth grade, and a graduate of Brooklyn 
Tech High School, Cornell University College of Engineering, 
and Harvard Business School.
    I am the founder and CEO of Vertex Partnership Academies, a 
new network of character-based, international baccalaureate 
high schools, with the first campus to open in the Bronx in 
2022.
    For the last 10 years, I was CEO of a nonprofit network of 
public charter elementary and middle schools in the heart of 
the South Bronx and the Lower East Side of Manhattan. Our 
faculty have the solemn responsibility of educating more than 
2,000 students, primarily low-income Black and Hispanic kids. 
We have nearly 5,000 families on our waiting lists, all 
desperate for their kids to receive a high-quality education.
    Many of our parents faced racial discrimination and other 
challenges in their own lives and feared their children could 
as well. But these parents chose our school because they wanted 
their children to develop the skills and habits to become 
agents of their own uplift, even in the face of structural 
barriers.
    In District 8 in the Bronx, of the nearly 2,000 public 
school students beginning high school in the South Bronx in 
2015, only 2 percent graduated 4 years later ready for college, 
meaning that 98 percent of those students either dropped out of 
school or did manage to graduate but still could not do basic 
math or reading without remediation if they entered community 
college. By contrast, at our all-boys school at 151st Street 
and Grand Concourse in the South Bronx, in 2018-2019, the last 
year State tests were administered, nearly 70 percent of our 
students passed the exam.
    I share this data because as a country, as we have these 
conversations around race, we have to recognize that many of 
the disparities that we see later on in financial wealth, home 
ownership, and educational achievement, originated much 
earlier. If only 2 percent of Black and Brown kids in the 
district I serve are graduating with basic skills, why do we 
think it is reasonable to expect that they are going to 
flourish in the workplace or higher education, starting 
businesses, getting married, having children within marriage, 
or any of the benchmark behaviors that we typically associate 
with young adulthood and entry into the middle class or beyond?
    And if we are focused on upward mobility, we should also be 
wary of the goal to achieve racial equity. Again, in education, 
only one-third of all eighth grade students in the country are 
reading at grade level. In fact, since 1992, when the nation's 
report card was started to be administered in reading and math, 
in fourth grade, eighth grade, and twelfth grade, there has 
never been a situation where even a majority of White students 
are reading at grade level.
    The sad irony is that achieving racial equity where Black 
students equal White students would mean that you will just be 
moving Black students from some mediocrity in terms of reading 
performance to full mediocrity. And that is not achieving 
excellence for all.
    So as we consider strategies to create an opportunity 
society for people of all races, I ask you to follow the 
philosophy we practice in our schools: Start early with the end 
in mind, and study the success of those who have achieved 
excellence, not just equity.
    As the committee has identified, there is absolutely a gap 
in racial wealth, and many people associate that gap with 
structural racism. And as a result, today's discourse is 
dominated by the disempowering narrative that unless 
institutional barriers are removed, Black Americans are trapped 
in a perpetual cycle of economic victimhood.
    One quote from Nikole Hannah Jones of the New York Times 
says, ``None of the actions we are told Black people must take 
if they want to lift themselves out of poverty--not marrying, 
not getting educated, not saving more, not owning a home--can 
mitigate 400 years of racialized plundering.''
    Imagine if you are a 12-year-old Black boy living in the 
South Bronx with aspirations to work hard to achieve the 
American Dream, yet you are repeatedly told that your dreams 
cannot be achieved. That is the very last thing that we do in 
our schools. Because this notion not only depresses human 
motivation, it is demonstrably wrong.
    The racial wealth gap--according to 2016, the average White 
family had 10 times the wealth of the average Black family. But 
when you take into account one factor, family structure, that 
relationship completely reverses, and the average Black, 
married, two-parent household has almost twice the wealth of 
the average White, single-parent household. This is a key 
figure.
    So, I look forward to answering your questions. I do have 
ideas on how we can advance opportunities in society for kids 
of all races.
    [The prepared statement of Mr. Rowe can be found on page 
140 of the appendix.]
    Chairwoman Waters. Thank you very much.
    I now recognize myself for 5 minutes for questions.
    There have been efforts in the past to combat 
discriminatory practices in the financial marketplace that have 
prevented access to credit or capital for minority borrowers. 
But much more must be done. After reviewing 41 million records 
reported under the Home Mortgage Disclosure Act (HMDA), 
investigative reporters found that more than 60 metro areas 
continued to exhibit patterns of modern-day redlining in the 
mortgage market to this day. And yet, 98 percent of banks pass 
their exams every year under the Community Reinvestment Act 
(CRA), a law that is intended to combat redlining.
    Making matters worse, Trump's appointees rolled back HMDA 
reporting requirements, making it harder to detect 
discrimination, while gutting CFPB's Office of Fair Lending and 
Equal Opportunity. Moreover, the challenges minority-owned 
businesses have faced accessing PPP and other pandemic programs 
underscore why the CFPB must finish its Section 1071 rulemaking 
so that we can better monitor who is getting small business 
loans, and on what terms, and who isn't.
    Ms. Gonzalez-Brito, thank you for testifying last year to 
help inform the committee of Joseph Otting's dangerous agenda 
to undermine the implementation of CRA. The Federal Reserve has 
its own CRA proposal, but does it do enough to combat modern 
redlining? What would you like to see in a CRA rulemaking, and 
do you have any recommendations on how Congress could 
strengthen the law?
    Ms. Gonzalez-Brito. Thank you, Chairwoman Waters, for that 
question. It is really important.
    The OCC rule, as you know, is very damaging, and we support 
the resolution that Congress has in front of it regarding the 
OCC rule. What we would like to see is the three agencies come 
together, and we really need a new Comptroller to undo the harm 
that the OCC rule is currently doing, because it is in effect 
at this time, even though there has been a pause in some 
aspects of it.
    Under the Federal Reserve's current rule that is being 
proposed, there are very strong aspects of it, including the 
fact that it is asking about race. But we think, at CRC, that 
it can be strengthened in that regard.
    For instance, it doesn't go far enough. It could, for 
example, measure lending and investment services by race and 
ethnicity. For instance, the way that CRA currently measures 
how well banks are currently serving borrowers who are low 
income, it could do the same by race and ethnicity, and 
disaggregate that data, that mystery I mentioned, for Asian 
borrowers even.
    So I think that would be a really important step for the 
Federal Reserve to take and for all three agencies to unify 
behind.
    Chairwoman Waters. Thank you very much.
    I would like to ask a question about diversity in 
leadership. In this October 2020 report, Georgetown law 
professor and international economics expert Dr. Chris Brummer 
noted the historical lack of Black appointees at the Federal 
financial regulatory agencies. He concluded that since the 
inception of the congressional confirmation process, only 10 of 
327 regulators have been Black. The SEC, the FDIC, the CFTC, 
and the Federal Reserve have never had a Black person at the 
helm.
    I agree with Dr. Brummer's assertion that this lack of 
diversity in leadership has led to the exclusion and detriment 
of people of color, and of Black people in particular, in the 
development of monetary and financial regulatory policies. 
People of color must and should be at the table to discuss and 
plan with policymakers on how initiatives will most 
efficiently, significantly, and prominently close the racial 
wealth gap.
    Mr. Robinson, what does your research show about the 
importance of people of color being able to lead and influence 
housing and financial services policies that significantly 
impact them?
    Mr. Robinson. Thank you, Chairwoman Waters.
    It is incredibly important. We understand and what we have 
seen time and time again is that when institutions don't have 
diverse folks making decisions, they are not able to get at the 
heart of some of the real challenges that can both unlock 
opportunities, but also do the very real enforcement that is 
necessary. Part of many of the problems around racial equity in 
this country is that we end up designing policies that we don't 
enforce because we have people in place who didn't understand 
what a scam looks like.
    Chairwoman Waters. Thank you very much.
    I now recognize the distinguished ranking member, Mr. 
McHenry, for 5 minutes for questions.
    Mr. McHenry. Madam Chairwoman, thank you, and thank you for 
calling this hearing.
    Mr. Rowe, I would like to start with you. We have enacted 
and we have had on the books now anti-redlining laws, very 
important anti-redlining laws, ECOA and fair housing laws, just 
for example, to stop discriminatory practices in housing and 
banking services and credit opportunities. These are very 
important laws.
    And the intent here was to stop discriminatory practices, 
but the hope of those writing those laws is that you would be 
able to eliminate racial disparities over time. Is that 
thinking in practice how we should approach this, or is there 
some other approach we should take?
    Mr. Rowe. Thank you for the question.
    Of course, those statutes are important. It is a necessary 
precondition to have the laws that prohibit discrimination 
based on race or any other set of immutable characteristics. 
But as I mentioned in my opening statement, the factors that 
drive the racial disparities that we are all concerned with are 
driven by a number of factors. Racism certainly is one 
component, but as the data shows, other elements such as 
academic preparation, level of education, and family structure 
have a deep impact on the capacity of individuals and families 
to be in a position to then enter financial markets, start 
their own businesses, or purchase their own homes.
    And again, this focus on racial disparities can sound good, 
but when we focus solely on the prism of race, we discount all 
of the other key factors that can be huge levers from both a 
policy perspective, as well as a cultural perspective.
    Mr. McHenry. And what are those factors?
    Mr. Rowe. Let us start with education. In the communities 
that I serve in the heart of the South Bronx, in a district 
where only 2 percent of kids graduate from high school ready 
for college, you want the power to be able to choose a great 
school for your child, independent of your race, your income 
level, or zip code.
    So, school choice is a fundamental element that I think is 
foundational to almost everything else that we are talking 
about. And I do think studying success is also important. There 
is an analysis that shows something called the success 
sequence. When individuals complete their education, even just 
a high school degree, and then get a full-time job of any kind 
just so you learn the dignity and discipline of work, and if 
you have children, marriage first, that series of decisions, 97 
percent of the people who follow that series of decisions 
entered the middle class or beyond.
    It is no guarantee, and within that, by the way, 91 percent 
of Black communities' millennials achieved entry into the 
middle class. These are just some of the factors. I think it is 
very important for us to look at the whole picture of the 
levers that we have in our control and, most importantly, that 
individuals have within their control in order to--
    Mr. McHenry. Okay. So, Mr. Rowe, along those lines, the 
Federal Reserve Bank of Cleveland has a report from 2019 in 
which they attribute the disparities in income related to race 
as the primary driver of the racial wealth gap. Would you agree 
with that assessment, and how should we look at a solution set 
here?
    Mr. Rowe. Well, income is one factor. But the transfer of 
wealth across generations is also a factor. Again, family 
structure, education level. It is actually one of the reasons I 
am supportive of means-tested baby bonds as one policy 
intervention that I think has some promise, the idea that if a 
child is born into a low-income family, essentially the 
government sets up a trust fund which is added to each year 
based on your income status. And at age 18, you then get that 
money for the ability, the restricted ability to pay for 
college tuition, put a down payment on a home, or potentially 
even start a business. Those are wealth-generating activities, 
and it is a reasonable way for the government to level the 
playing field for low-income kids to have an equal shot to 
other kids who grow up in middle- or upper-class families.
    Mr. McHenry. Okay. One example that has been talked about 
here on the Hill is to wipe away student debt. Student debt is 
disproportionately for graduate students and disproportionately 
for people who are less diverse than the broader population. So 
that is an example of a policy that actually doesn't get at a 
solution set.
    So thank you for your testimony, Mr. Rowe, and I yield 
back.
    Mr. San Nicolas. [presiding]. Thank you, Mr. McHenry.
    Representative Sherman is now recognized for 5 minutes.
    Mr. Sherman. Thank you.
    There was a time when it was the advertiser who was in the 
blatant position of excluding discriminated groups. The 
advertisement could just say, ``No Jews allowed,'' or ``No 
Blacks allowed.'' Today, it is not so much the advertiser as 
the advertising platform. People of color cannot respond to an 
ad that they don't see.
    Facebook requires advertisers to certify that the ads 
comply with nondiscrimination laws, but then Facebook has a 
secret algorithm that determines who is going to see the ad. 
And we have no idea whether it is discriminatory or not.
    Mr. Clay and I led a number of our colleagues in a letter 
to Mr. Zuckerberg expressing concern that Facebook's algorithm 
produces discriminatory outcomes in the ads for housing and 
credit opportunities. Here was the response:
    ``You see, if you are on Facebook, and you are tired of 
looking at your grandkids' pictures, you can go browse all the 
ads that have ever appeared on Facebook and perhaps find that 
one that was targeted to everybody but your community.''
    I know of no one who spends their time looking at the 
Facebook ad library. The fact is that while Facebook has taken 
some steps, a recent independent analysis has demonstrated that 
mechanisms in Facebook's ad delivery system can lead to 
potentially discriminatory ad delivery, even when the 
advertisers set their parameters to be, ``highly inclusive.''
    Without objection, I would like to put in the record this 
article, which has been cited in over 89 academic studies, 
``Discrimination Through Optimization: How Facebook Ad Delivery 
Can Lead to Biased Outcomes.''
    Mr. San Nicolas. Without objection, it is so ordered.
    Mr. Sherman. And my question for Ms. Bailey is, is it 
important to force Facebook to open up its algorithm, if not to 
everyone, at least to a confidential and independent audit, to 
make sure that algorithm is not depriving people of color from 
certain financial services and housing opportunities?
    Ms. Bailey. Thank you for the question.
    We know we can't see discrimination that we can't watch 
for, and it is part of the challenges with algorithmic sites. 
We know that the programmers and the biases that they have are 
actually part of how they program the programs to operate. So 
it is critical that the first thing that we do is that we 
create practices that provide more transparency about the ways 
that we are actually programming programs to really function 
and to ensure that they comply with our nation's fair lending 
laws.
    Unfortunately, for much of our history, our nation's fair 
lending laws have yet to be fully enforced. We have these 
wonderful tools on the books that we don't take advantage of in 
terms of ensuring the transparency and the data collection and 
then the strong enforcement to make sure families of color are 
not harmed.
    Mr. Sherman. Let me just sneak in one other question, but I 
look forward to working with you and Mr. Clay to peer behind 
the curtain at Facebook.
    Mr. Robinson, there is an infrastructure package being put 
forward by the Biden Administration. This presents a unique 
opportunity for us to address systemic racism and barriers to 
good-quality housing. Any major investment in the nation's 
infrastructure, I think should recognize the important 
relationship between the growing demand for rental housing and 
private industry's inability to meet that need.
    There are too few rental housing units, and under the law 
of supply and demand, the rent is too high. Would you agree 
with this committee that housing is infrastructure and that 
Congress must take bold action to incentivize or require States 
and localities to remove barriers to housing production such as 
exclusionary zoning?
    Mr. Robinson. Absolutely. As someone who grew up on Long 
Island, I understand all the ways in which housing rules have 
created winners and losers, insiders and outsiders, those who 
have been able to access opportunity and be able to build 
wealth and educational access and those who haven't. And so, 
whether we are talking about rentals or whether we are talking 
about home ownership, we need to be able to expand the 
opportunity for all to be able to have housing that serves 
their needs.
    Mr. Sherman. The City says, ``We don't discriminate on the 
basis of color. We just say that no more than three units can 
be built on any acre.''
    Mr. Robinson. Absolutely, yes.
    Mr. Sherman. I yield back.
    Mr. San Nicolas. The gentleman yields back. The gentlelady 
from Missouri, Mrs. Wagner, is recognized for 5 minutes.
    Mrs. Wagner. I thank the Chair, and I want to thank our 
witnesses for joining us today.
    Mr. Rowe, our students need to be back in the classroom. 
Every day that our children are out of the classroom, they fall 
even further behind in their education. Can you address how 
this time out of the classroom will affect an entire generation 
of students, whom I think we all want to have the ability to 
succeed and achieve their dreams?
    Mr. Rowe. Thank you for the question.
    It was a year ago at almost exactly this time on a Friday 
that all of our nearly 2,000 kids were in class, and then by 
Monday, we literally had to move into remote learning. And I 
think most school districts across the country were not 
prepared. We set up Wi-Fi hotspots in housing, low-income 
projects. We set up study areas in the homeless shelters where 
kids were going to school. And we set up an apparatus to do 
what we believe is effective remote learning.
    But there is nothing that can replace the environment of 
being in a physical classroom--the level of accountability, the 
level of interaction. And we also say that even as it relates 
to abuse and other factors, we, as an official school system, 
can work with families if they are having issues. Much of that 
has been divorced. And so, even today, I am concerned that we 
need to prioritize getting teachers vaccinated so that we can 
get kids back into school. I think it is a national priority.
    Mrs. Wagner. I agree. Last Congress, Mr. Rowe, I submitted 
a request to GAO's financial markets and community investment 
team to study efforts by financial and insurance firms to 
increase women's participation in STEM programs. This study is 
still ongoing, and I look forward to reviewing the final 
report, and I believe that its findings will reveal probably 
the best innovative solutions our private sector has to offer 
when it come to increasing the level of women in the financial 
services industry.
    Mr. Rowe, as someone who has run public charter schools in 
low-income communities, as you have, could you tell me about 
your experiences with our education system engaging female and 
minority students to participate in STEM education and 
financial literacy?
    Mr. Rowe. Thank you for the question.
    The network that I led for 10 years was a network of 
single-sex schools, so we actually had all-girls elementary and 
middle schools and all-boys elementary and middle schools, and 
STEM was a huge focus. In fact, our sixth graders in Girls Prep 
Lower East Side Middle School actually built a computer, 
because our experience has been that there's strong interest in 
science and math in the early grades, but that starts to erode 
as young girls start to enter middle and high school.
    And so, we have made that a huge focus for how we 
inculcated this idea that in our all-girls school, the top 
student in math is a girl, and the top student in science is a 
girl. And so we also--in terms of college access, we also know 
that to expose our students to programs that were open to them 
at NASA and others.
    Mrs. Wagner. Yes.
    Mr. Rowe. And we even started college savings accounts for 
our students starting in pre-K, so starting at 4-years-old, and 
matching that every single year so that each student knew that 
they were building the capacity to attend the schools that they 
would be academically prepared for in STEM and other fields.
    Mrs. Wagner. That is absolutely tremendous, and I think you 
are right, when young girls have the exposure, they absolutely 
excel.
    A major factor when examining the wealth gap is race 
disparities. STEM occupations have higher salaries in the 
United States. The average salaries of jobs in science, 
technology, engineering, and mathematics field are almost 
double the national average of salaries in non-STEM fields.
    Although some progress has been made, and you have 
explained a little bit of that, there is still a significantly 
lower number of women and minorities in these professions. What 
other steps need to be made to increase the number of women and 
minorities in STEM fields, Mr. Rowe?
    Mr. Rowe. Let us increase school choice at the middle 
school and high school level--
    Mrs. Wagner. Hear, hear.
    Mr. Rowe. --so that there are more great schools. And in 
the school that we are launching next year in the heart of the 
South Bronx, we will have industry partnership, so our students 
at tenth, eleventh, and twelfth grade can be studying computer 
science with corporations in those industries and they can 
graduate from high school with an industry credential with 
labor market value.
    It starts with school choice.
    Mrs. Wagner. I couldn't agree more. I think my time has 
expired, and I yield back.
    Mr. San Nicolas. Thank you, Mrs. Wagner.
    The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you very much, Mr. Chairman.
    Now, let me explain the situation. Unfortunately, Black 
households experience home foreclosure at the highest rate in 
this country, and that results in generations of household 
wealth completely erased right then. And now during this 
pandemic, we also know that Black households are the hardest 
hit by the COVID-19 disease and experience the highest 
unemployment hardship, and this results in the greatest levels 
of financial insecurity, which harms the African-American 
family's ability to achieve home ownership in the future. It is 
almost like a Catch-22. There was a great movie by that name. 
Black people are in a Catch-22 in this area.
    So, Ms. Bailey, what more can we in Congress do to 
eradicate this, to make sure that home ownership is not a 
housing choice that is limited only to those with generational 
wealth who are predominantly White? What more can we do?
    Ms. Bailey. Thank you for the question. We have to remember 
that 20 percent of White Americans can actually trace their 
wealth--those families who actually benefitted from the 
Homestead Act land grants can trace their family's wealth to 
that single piece of legislation. We know that those New Deal 
policies really help to shore up the middle class. What those 
policies have done is really helped middle-class White families 
pass on intergenerational wealth, to help their families with 
down payments.
    So one of the critical things that we can do is make sure 
that we have targeted down payment assistance programs that 
would benefit first-generation home buyers. Many of these 
first-generation home buyers are African Americans, Latinos, 
and other people of color. Doing this would generate an 
opportunity to really grow home ownership. We know that today 
there are three million mortgage-ready Black consumers and 
there are more than five million mortgage-ready Latino 
consumers. So, we have these consumers who are on the start 
line, ready to jump into home ownership, and a targeted down 
payment assistance program can really help to bring those 
families in.
    What is good about this program is that it won't just help 
those families; it is actually going to help the economy 
overall. Studies have shown that addressing discrimination, 
including the discrimination in housing, has a chance to help 
grow the economy and help us to see economic growth around $1 
trillion a year.
    Mr. Scott. Very good. Now, I want you, and Mr. Robinson, 
and I hope all of those listening, to know that that yesterday 
I introduced my Financial Inclusion in Banking Act, which 
addresses some of what you just said, and we need everybody's 
help to get this bill called up and passed. And what my bill 
does is it convenes the CFPB to work with agencies, 
departments, and advocacy groups to be able to remove those 
financial inclusion points, some of which you just mentioned, 
and help Black homeowners access traditional financial services 
so that they are not pushed towards fringe bad actors. That is 
where they go, because we don't act.
    What do you and Mr. Robinson see as some of the risks 
associated with financial exclusion? And on top of that, I have 
another bill to start teaching financial education in our 
school system. Only 17 of our State public school systems offer 
one course in financial education. My other bill grants the 
CFPB with grant-making authority for public-private partnership 
like what FS Investments in Philadelphia is doing with the 
Wharton School of Finance at the University of Pennsylvania, my 
alma mater, coming up with the kinds of curriculums to start 
teaching our young Black people right away the importance of 
financial education.
    Can you all help us with those two bills?
    Ms. Bailey. Yes. I look forward to it.
    Mr. San Nicolas. The gentleman's time has expired, but we 
will go ahead and welcome those responses to be provided to the 
committee. Thank you very much, Mr. Scott.
    The gentleman from Oklahoma, Mr. Lucas, is now recognized 
for 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. Mr. Rowe, you rightly 
note in your testimony thatthere is no silver bullet to close 
the racial wealth gap overnight, but Chairwoman Waters was 
quite correct to aggressively push the committee in the 
direction of addressing those issues. After all, our greatest 
asset is our people, and if our individuals in this great 
country can't live up to their potential, whatever the reason 
that has inhibited that, then the nation as a whole cannot live 
up to its potential. So this is important, and I look forward 
to seeing what kind of legislation that I suspect she will be 
putting forth, probably sooner than later, that will 
aggressively do this.
    But again, Mr. Rowe, let's go back to something 
fundamental. An individual's education level is directly linked 
to the likelihood of having a checking or savings account, and 
in 2019, the FDIC found that the unbanked rate for those with a 
high school diploma was 8.1 percent, and for those with a 
college degree, 0.8--yes, eight-tenths of a percent--were 
unbanked. Among Americans with no high school diploma, it jumps 
to 21.4 percent. Could you talk to the importance, as you have 
addressed, and a number of our other witnesses have addressed, 
the importance of education in accessing the banking system and 
how this impacts economic mobility, which is the real issue 
here, mobility, mobility to move?
    Mr. Rowe. Absolutely. One of the reasons that we start 
college savings accounts, New York State 529 accounts, for the 
schools that enter our system, at 4-years-old and pre-K, they 
have their name on it. It is not just because of the money, the 
$50 or $100 of money that we continue to match over time. It is 
to build financial literacy and this idea that they can manage 
money, and this idea of compounded interest, future-oriented 
goals. That is extremely important. And right now in our 
country, there are three million, for example, students in 
public charter schools. There are nearly five million kids on a 
waiting list. If we want a solution that can immediately impact 
opportunity for kids, I think creating widespread school choice 
would be a great intervention.
    Mr. Lucas. Along that line, as we work to better understand 
the disparities that cause the wealth gap, can you point to 
some industry best practices that are attempting successfully 
to help reduce those socioeconomic disparities? And in the back 
of my mind, of course, I first think of internships, 
scholarships, that kind of thing. Can you touch on some things 
that are working out there, that perhaps we could build off of?
    Mr. Rowe. Let me give you two examples. One is a major 
study that was done by Raj Chetty, ``Where is the Land of 
Opportunity?'', a study where he analyzed 40 million tax 
records of individuals across the country. And they found that 
intergenerational mobility was driven by hyperlocal factors, 
that even though there were these racial disparities, for the 
Black community, what made the difference was the presence of 
fathers in the household or marriage rates within a particular 
neighborhood make a dramatic difference in terms of higher 
education outcomes and better economic outcomes. That is the 
first thing.
    In terms of a specific industry practice, there is actually 
a company, Netflix, that decided to take 2 percent of their 
cash holders, which is about $100 million, and transfer that to 
Black-owned financial institutions for the purpose of now 
injecting into low-income communities this capital that can be 
accessed for starting businesses, and potentially buying homes. 
And that is an example of a generative investment, done by a 
private organization, but this idea of money that has strings 
tied to it, because in order to access that $100 million you 
have to deliver a business plan, and demonstrate 
creditworthiness. And those kinds of investments will have 
generational impacts.
    So school choice, things like, again, means-tested baby 
bonds, investments that have strings attached to it that are 
relating to starting businesses, getting education, those are 
the kinds of investments that are going to have a long-term, 
generational impact on not only the Black community but low-
income kids of all races.
    Mr. Lucas. I would simply ask, because I yield back, as we 
address the issues that have affected, literally for 
generations, let's not forget that all women have faced these 
challenges, too. And I do not want to be left out there either.
    I yield back.
    Mr. San Nicolas. The gentleman from Texas, Mr. Green, is 
recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and I shall move 
expeditiously. I would like to move quickly to Ms. Bailey. Ms. 
Bailey, can you hear me?
    Ms. Bailey. Yes. Thank you.
    Mr. Green. Ms. Bailey, a question for you. Would it be 
beneficial to establish an office of fair lending and testing 
within the CFPB so as to actually test lenders to ascertain 
whether or not invidious discrimination exists, so that we can 
have the empirical evidence to move forward and the prosecution 
necessary?
    Ms. Bailey. --our fair lending laws, and utilizes the Equal 
Credit Opportunity Act is always critically important, and 
partner up with the bureau and get in it to do--
    Mr. Green. Ms. Bailey, because my time is limited and I 
have about six questions, I am going to interrupt, so please 
forgive me, okay? But would it be beneficial to have such an 
office for testing in the CFPB?
    Ms. Bailey. Yes. I think it is critical.
    Mr. Green. Okay. Thank you very much. Let's move on to the 
next one, because I am very, very concerned about a number of 
things. Would it be beneficial to have a minority business 
development administration that would be devoted exclusively to 
supporting the growth and expansion of minority business 
enterprises by providing technical and managerial expertise as 
well as other support and resources? Would such an office be of 
benefit to minority people, Ms. Bailey?
    Ms. Bailey. Yes. Having more support for small businesses 
of color is critical.
    Mr. Green. Ms. Bailey, would it be beneficial to have banks 
rated for their diversity and inclusion? Currently, they are 
rated for other things, but I would like to add this to the 
list. Would it be beneficial? Ms. Bailey?
    Ms. Bailey. Yes. We know that diverse firms actually 
outperform non-diverse firms, so absolutely, yes.
    Mr. Green. Okay. All of these things relate to legislation. 
I just have to succinctly ask these questions. Should Fannie 
and Freddie be required to reinstate the preferred language 
question it removed from the Uniform Residential Loan 
Application, and I would like for Mr. Yang to answer that 
question. Mr. Yang, your response, please?
    Mr. Yang. Absolutely. Ensuring that Asian languages are 
covered and our communities are addressed is important to us.
    Mr. Green. Thank you very much. Ms. Bailey, I am back to 
you again. Should borrowers be allowed to have nontraditional 
data, such as utility bills, scored on an optional basis such 
that it might improve their credit scores?
    Ms. Bailey. Yes. We actually do not get rental history in 
credit scoring today, and that is part of the problem. So, yes.
    Mr. Green. And finally with the questions, and then I will 
have a comment, does matched-pair testing provide empirical 
evidence of invidious discrimination in housing, Ms. Bailey?
    Ms. Bailey. Yes, and the National Fair Housing Alliance has 
done tremendous work in this realm, and are wonderful partners 
on this effort. According to them, we see increased evidence of 
discrimination every year. So absolutely, yes.
    Mr. Green. Thank you. All of my questions were questions 
related to bills, six bills that we have pending, and these 
questions go right to the heart of each piece of legislation.
    But now I would like to close with this, if I may, because 
this is historic. What we are doing today is unlike anything I 
have seen since I have been in Congress, and I have been here 
now for more than 15 years. Ms. Bailey, you have been a part of 
this process for some time. Do you agree that this is historic?
    Ms. Bailey. Yes, sir.
    Mr. Green. Mr. Yang, is this historic?
    Mr. Yang. Having a session like this is absolutely historic 
and meaningful for all of our communities, yes.
    Mr. Green. Mr. Robinson, do you agree?
    Mr. Robinson. Yes, sir.
    Mr. Green. I am not going to ask everybody, but I mentioned 
this because this is not the end. What Chairwoman Waters has 
brought to our attention today is just unbelievable, in my 
opinion, and I want to compliment her and the staff for putting 
this together. Things like this should not go unnoticed. I plan 
to archive this hearing and possibly use it for some sort of 
future presentations. But it is just absolutely historic.
    Final question, and this question is going to go to Mr. 
Robinson. Mr. Robinson, would it be beneficial for us to have a 
department of reconciliation with a secretary of reconciliation 
who reports directly to the President, whose job it is to get 
up every day and go out and see how we can end the invidious 
discrimination that exists in this country? Would it be 
beneficial, Mr. Robinson?
    Mr. Robinson. It would absolutely be beneficial to put 
resources, energy, and hopefully enforcement behind moving us 
forward as a country, sir.
    Mr. Green. I thank you all of you for being here today, and 
I yield back, Mr. Chairman.
    Mr. San Nicolas. Thank you, Mr. Green. The gentleman from 
Florida, Mr. Posey, is recognized for 5 minutes.
    Mr. Posey. Thank you, Mr. Chairman. I note that the 
appendix to the chairwoman's hearing memo lists 26 bills that 
all seek, in one way or another, to address the title of this 
hearing. Most of these proposals double down on the approaches 
of the past. I am reminded that Henry Ford once made a profound 
statement about innovation. He said, ``If you had asked the 
public what they wanted, they would have said a faster horse,'' 
and the list of 26 bills is analogous to a list of 26 proposals 
seeking to be faster horses. They don't really look like 
innovation.
    Many ideas have been tried before. I have often remarked 
about the power of a truly free market to drive out racial 
bias. I firmly believe the notion that getting our market 
[inaudible] right will leverage greater access to finance and 
housing among all our people. Competition can work to drive out 
much disparity.
    Innovations also arise out of new ideas in one realm being 
brought to bear on problems in another. That is why I am 
pleased that Mr. Rowe has joined us today and brings ideas from 
a wide range of areas that can help us understand meaningful 
ways to empower innovation in this important area.
    Mr. Rowe, first of all, thank you for your great testimony. 
Do you believe that our financial and housing markets are 
systemically racist, and if so, what are the major examples 
that you see?
    Mr. Rowe. Thank you for the question. There are obviously 
barriers to allow Americans of many backgrounds to access 
financial markets and housing. I have committed my life to 
ensuring that we achieve excellence for all, and it is why I so 
stress that the issues that we are trying to focus on 
typically, and in a vast majority of cases, originated many 
years earlier, most notably in the lack of opportunity to have 
access to great public schools. We have a situation in our 
country where only a third of all kids are reading at grade 
level. Why is it that we would assume that those gaps would 
just magically disappear with all of the barriers that come 
along with those things?
    There was a study done a couple of years ago, ``Black Men 
Making it in America.'' It is a really important study to look 
at because it actually chronicles the experience of Black men 
who face the exact same barriers that we are talking about, but 
what are the strategies that they utilize to enter the middle 
class and beyond? And those strategies, as laid out in the 
report, typically they completed at least their high school 
education, some college, full-time work of any kind, marriage, 
then children. The vast majority of Black men who followed 
those strategies have entered the middle class or beyond.
    And there were a few other factors. Typically, they had 
some kind of faith commitment, they were in the military, and 
most importantly, they had a sense of personal agency, in the 
sense of even in the face of structural barriers, they had the 
individual power to overcome them. That is different from 
saying that they needed to pull themselves up by the 
bootstraps. But what I do think that report suggests is that it 
is really crucial that we emphasize the role of school choice 
to be that first rung on the ladder of economic opportunity and 
strong families. That is the foundation that, over time, will 
be a much more effective strategy to address the issues with 
which we are all concerned.
    Mr. Posey. Thank you. Can you share a little bit on how a 
free, competitive market drives out discrimination, and if 
there are areas where markets need help in this regard, what 
might they be?
    Mr. Rowe. When we educate our kids in our schools, we don't 
say to them, ``We want you just to be as good as White 
people.'' The vast majority of our kids in our classes are 
Black and Hispanic. We don't seek out racial equity. We seek 
excellence for all. In order to achieve excellence for all, you 
have to be exceptional. And so our schools are operating on 
this idea of hard work, and that there are principles around 
family, faith, hard work, entrepreneurship, and strong 
education. These are the foundations that will equip you to be 
successful, regardless of the overall environment. And let me 
say, in the absence of those things, it is almost guaranteed 
that you will not be successful.
    Mr. Posey. Sadly, I see my time has expired, so I yield 
back. Thank you.
    Mr. San Nicolas. The gentlelady from New York, Mrs. 
Maloney, is recognized for 5 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman. This past Sunday, we 
commemorated 56 years since Bloody Sunday, when our late 
colleague, John Lewis, and hundreds of other civil rights 
advocates were brutally attacked as they marched across the 
Edmund Pettus Bridge to secure one of our most fundamental 
rights, the right to vote. We have made some progress in those 
56 years, but nearly not enough. And the health and economic 
crisis wrought by the coronavirus pandemic has only exacerbated 
underlying inequities in our society.
    Federal Reserve Chair Powell testified before this 
committee 2 weeks ago that the economic downturn has not fallen 
equally for all. He said, ``The high level of joblessness has 
been especially severe for lower-wage workers and for African 
Americans, Hispanics, and other minority groups.''
    With our COVID response, we have tried to create equitable 
distribution of relief to fight the disproportionate effects 
felt by most BIPOC and other underserved communities. We 
ensured funds were going to minority depository institutions, 
because we know those institutions are more likely to lend to 
minority borrowers and businesses.
    Even before the pandemic, Black and Hispanic renters were 
more likely to be severely cost-burdened by rental payments, so 
this committee specifically fought to include rent relief in 
COVID aid packages, to help struggling families stay in their 
homes.
    Systemic racism still exists. African Americans and other 
minorities still face discrimination in housing, in lending, 
and in employment. There is not one blanket solution to address 
systemic racism, but just because it is hard, doesn't mean we 
shouldn't try.
    My question to the panel, as we are looking to recover 
economically from the coronavirus and look for ways that we can 
proactively address systemic racism and inequities in our 
housing and financial system, what should this committee 
consider as key elements of a package to address systemic 
racism and to ensure we build back better for all individuals, 
not just for some? Is it enforcement of existing laws? Do we 
need new protections, new programs with a focus on minority 
borrowers? What exactly do we need?
    Let's start with Ms. Nikitra Bailey first, and then Ms. 
Gonzalez-Brito, and then the other panelists. Thank you.
    Ms. Bailey. Thank you, and I have to say thank you for the 
Home Ownership Assistance Fund that was in the last package 
that this Congress just passed. That Home Ownership Assistance 
Fund is really going to help struggling homeowners, so that is 
the very kind of thing that we need to continue to see. Next, 
we need to see this targeted down payment assistance program. 
It is something that will help generate billions in revenue and 
help first-generation home buyers get into the marketplace, 
which will help them build long-term and sustainable wealth.
    I also want to talk about fully enforcing our nation's fair 
lending laws: 102 years went by before the first Fair Housing 
Act was actually enforced. It was not until the 1968 Act that 
we actually saw some level of enforcement attached to fair 
housing. Those loans actually are there, and they can really 
help stimulate economic growth, especially through the creation 
of special purpose credit programs. So, I would like to really 
see those laws fully enforced. And I will pause there to give 
my colleagues a moment to jump in.
    Ms. Gonzalez-Brito. Thank you for this important question. 
I want to raise one issue. That is, I think, Mr. Rose, not 
truly understanding equity in terms of what it means, in terms 
of equal opportunity. And then the second thing I would say 
around financial systems is that we need to be able to remove 
barriers and that there is a real responsibility for the 
financial systems to remove those barriers, rather than just a 
personal responsibility to overcome those barriers. So if we 
look at it that way, then this committee really has a 
responsibility to think about things like enforcement, as Ms. 
Bailey said, and we think about disparate impacts and how this 
committee can think about using enforcement and disparate 
impacts in that way, and that the CFPB has been gutted, and to 
really bring back their lending enforcement.
    The last thing I would say is transparency. We need 
transparency around HMDA, making sure it is public, and the 
CFPB 1071 Rule needs to be completely public, because if the 
public knows what is happening, then enforcement follows.
    Thank you for that question.
    Mrs. Maloney. And Mr. Rashad Robinson?
    Mr. Robinson. One thing I would add to what my colleagues 
said is really also looking at innovation and masks, that tried 
to mask itself, and that is over what is actually [inaudible].
    Mrs. Maloney. Thank you.
    Mr. San Nicolas. The gentlelady's time has expired. The 
gentleman from Missouri, Mr. Luetkemeyer, is recognized for 5 
minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with you this morning, and I thank all of the 
witnesses for being here.
    Before I begin my questioning, though, I do have a comment. 
It is very disappointing that this happened again today. The 
testimony of one of the witnesses was not posted until 10:45, 
which is 45 minutes after the hearing had begun. How are we 
supposed to be able to do our job, which is to prepare for this 
hearing, understanding the points of views of the individual 
who is before us today, and then be able to ask questions that 
can draw out information that is going to be helpful to us and 
our constituents? This is the second time this has happened, 
and I hope it is the last.
    With that, Ms. Gonzalez-Brito, thank you for your 
testimony, which was on time. I have a question with regards to 
something that you said in there. You were talking about how 
some of the private commercial banks are not adequately serving 
the communities, and one of your solutions is to include postal 
banking. Do you understand, or do you know how much debt the 
post office currently has, Ms. Brito?
    Ms. Gonzalez-Brito. I don't currently have that at the tip 
of my fingers.
    Mr. Luetkemeyer. They have $87 billion over the past 14 
years, and are expected to lose $160 billion over the next 10 
years.
    At the end of the last year, do you know what the on-time 
rate was for the United States Postal Service (USPS)?
    Ms. Gonzalez-Brito. Well, sir, I do believe that there has 
been an underfunding of the Postal Service and continued 
changes.
    Mr. Luetkemeyer. The question is, do you know what the on-
time rate is for them to deliver service?
    Ms. Gonzalez-Brito. I do know that there has been an 
underfunding of the Postal Service--
    Mr. Luetkemeyer. Okay.
    Ms. Gonzalez-Brito. --and continued changes with the 
current--
    Mr. Luetkemeyer. At the end of December, the USPS had an 
on-time rate of 38 percent for non-local mail. That is 
according to the USPS's reported information in a Federal 
court. So they are underfunded, underwater, and they are not on 
time.
    Ms. Gonzalez-Brito. We do agree that they are underfunded.
    Mr. Luetkemeyer. Ms. Brito, it is my time. Thank you. So 
when you suggest this as a solution to a problem, all you are 
doing is exacerbating the problem. In fact, when people ask me 
about the Postal Service getting into the loan business, I say 
you would be much more efficient and effective if you would let 
the banks deliver the mail versus the postal system start 
making loans. This is not a solution. This is exacerbating a 
problem, is what it is going to be.
    With regards to the rest of your testimony, something else 
caught my eye, which was your comments with regards to the 
Community Reinvestment Act. You make a comment in there that 
you want to tie reinvestment obligations to the bank presence 
where the banks seek profit. In other words, you want them to 
be able to reinvest in the communities that they get their 
deposits from. I think that is exactly what needs to happen, 
and I think that is exactly what happened in the new rule, 
because as I understand it, the way the rule is written, if 
there is at least 5 percent of the bank's deposits coming from 
a certain area, they have to reinvest that money in their 
community. Is that not something that you support?
    Ms. Gonzalez-Brito. The current rule is very flawed, and it 
actually creates a problem with banks not giving enough credit.
    Mr. Luetkemeyer. Reclaiming my time, would you please 
answer my question? My question is, do you support having the 
banks reinvest the dollars in the communities that they get the 
money from?
    Ms. Gonzalez-Brito. I do support banks getting--
    Mr. Luetkemeyer. So why is this a problem with the way you 
fund it, because this is exactly what they are doing, and I 
think--
    Ms. Gonzalez-Brito. But the entire rule is problematic, 
sir. The entire rule is problematic and ends up giving less 
credit to rural communities, which have been underserved, as I 
am sure you understand. It gives less credit for low- and 
moderate-income (LMI) communities. It gives less credit for 
bank branches. And ultimately, it gives less voice to 
communities in the process for bank exams, for example.
    Mr. Luetkemeyer. Thank you for that. Reclaiming my time, I 
am in that world. I am in the banking world so I understand 
what goes on, and I would probably respectfully disagree with 
your previous comments there, that the rule really enhances the 
ability of the banks to be able to invest in the rural 
communities, invest in the communities that they are getting 
dollars from, and get credit for it. Because I can tell you, as 
somebody who actually filled out the report over the last, 20 
years, whenever they first started this program, it was very 
difficult to get credit for that. And with the new schedule, 
the new rules, this makes it easier for banks to comply and to 
be able to get credit accordingly. So, I think that is 
something I am very, very sensitive to and very supportive of.
    Mr. Rowe, one of the things that you talked about in your 
testimony is the importance of success sequence, getting a high 
school degree, a full-time job, and waiting until marriage 
before having children. Is this something that your academics 
attempt to instill in young Americans that you are trying 
[inaudible]?
    Mr. San Nicolas. The gentleman's time has expired. The 
witness may respond in writing to the gentleman's query.
    For the record, one of our witnesses, Dr. Taylor, had a 
family emergency and was not able to participate in today's 
hearing. Ms. Bailey was gracious enough to step in at the last 
minute to testify for today's hearing, and we thank her very 
much. The Majority staff did give sufficient notice to the 
Minority of the witness change in accordance with the rules, 
and we thank all of our witnesses for their testimony and 
participation today.
    The Chair will now recognize Mr. Foster of Illinois for 5 
minutes.
    Mr. Foster. Thank you. I would like to ask a few questions 
about discrimination in housing appraisals. Ms. Bailey, less 
than 50 years ago guidebooks used to train appraisers to give 
specific instructions on how to lower their appraisal estimates 
in Black and Latinx neighborhoods. And while these blatantly 
racist practices have disappeared, I am worried that more 
subtle discriminatory practices still lurk in our housing 
finance system and are a real barrier to intergenerational 
wealth accumulation.
    Studies indicate that both at the neighborhood level and at 
an individual level, race affects the appraised value of a 
house. A 2018 Brookings report found, for example, that in the 
Chicago-Naperville-Elgin metro area, which includes part of my 
district, the average devaluation of homes in majority Black 
neighborhoods was negative 28 percent--28 percent lower. On a 
household level, the undervaluation of a home can mean the 
difference between hundreds of thousands of dollars in home 
equity.
    So my question is, are there gaps in the oversight of 
appraisers today or appraisal procedures? Is there a uniform 
set of objective standards at the Federal level, and if no, how 
can we improve this framework to better prevent the systematic 
undervaluation of homes that we are seeing in communities of 
color and homes owned by people of color?
    Ms. Bailey. Absolutely, and thank you for the question. 
Appraisal bias is very real, as demonstrated by recent news 
articles that actually show that a family was almost robbed of 
$500,000 in potential home equity as the result of a harmful 
appraisal. We must address discrimination in the valuation of 
homes in communities of color.
    Among other things, there should be a robust review of 
Federal appraisal standards, including ethics standards and 
increased training on unconscious bias for appraisers. We also 
need to expand initiatives to bring more appraisers of color 
into the field.
    Mr. Foster. Thank you. That second point, I think, is 
really important. According to the Appraisal Institute, 90 
percent of appraisers identify as White, 75 percent are male, 
52 percent are 51 years--it is basically a bunch of old White 
guys, if you will forgive me. How might having a greater number 
of diverse appraisers help remedy this covert racism that is 
going on today?
    Ms. Bailey. This experience really can help inform the way 
the valuations are done and it can help them have a set of 
consistent standards across the industry to make sure our 
communities are not undervalued. We have known again, though, 
that this systemic undervaluation of Black properties is also 
known as a, ``Black tax.'' This is something that all Black 
consumers, and many other consumers of color, are fearful of, 
that our property values will not be seen in light of the value 
that they actually have. We know in our communities, we will 
have houses that are identical to houses in White communities--
same builders, same everything--and somehow those houses 
actually come up being valued less.
    So we need to see fuller enforcement of our nation's fair 
lending laws. I know I keep going back to that one, but what we 
are seeing are things that really make us question why are 
these practices not being taken up and used through ECOA and 
the Fair Housing Act, to figure out, is this outright 
discrimination? We have tools that can really help us get at 
these issues and really help people understand that there is 
that fairness inequity in the system.
    Mr. Foster. Yes. It is also true that appraisals and 
assessments are sort of a double-edged sword. There is a huge 
problem in the Chicago area that is in the process of being 
rectified, that you had basically wealthy, predominantly White 
neighborhoods, much more likely to appeal their assessment and 
get their tax burden reduced, and this corresponded to hundreds 
of millions of dollars of wealth transfer from minority 
neighborhoods to White neighborhoods, the effect on taxing. And 
so, it is a really complicated issues.
    In terms of technology, what are the benefits and risks of 
involving technology either to perform the primary assessment 
appraisal of a house or as a check on bias?
    Ms. Bailey. We have to say this, that technology can be a 
tool, but it has to be a tool that does not include implicit 
bias in its design. So like we said earlier, we have to make 
sure that if technology is going to become a part of the 
process, that the programmers are not instituting bias. And I 
will stop there to see if Mr. Robinson wants to add anything.
    Mr. Robinson. The one thing I would just add is that bias--
bad data in, bad data out--technology actually cannot solve for 
it. It just simply amplifies it.
    Mr. Foster. Thank you, and it looks like my time is over, 
so I yield back.
    Chairwoman Waters. Thank you. The gentleman from Michigan, 
Mr. Huizenga, is now recognized for 5 minutes.
    Mr. Huizenga. Thank you, Madam Chairwoman, and as a former 
licensed REALTOR, I think I am one of the few people who has 
actually been involved in the production of housing, and the 
selling of houses. And I have said this before on this 
committee multiple times. When I was becoming a licensed 
REALTOR, I was taught that people were not White, they weren't 
Brown, they weren't Black, they weren't yellow. They were 
green, green in the sense that they could either afford it or 
not afford it, and that is the way that we should be operating. 
I fully understand that is not always the case. We need to root 
that out. But to assume that the entire system is based on 
that, I think is a faulty premise. People will pay what they 
are willing to pay for a home--no more, no less. Well, I guess, 
actually they will pay less. Who wouldn't pay less for 
something that they would be willing to pay for?
    But I am fascinated by Mr. Rowe's account, and I would like 
to kind of revisit that a little bit, and what he is doing with 
those schools. We know that trillions of dollars--in fact, 
there is an estimate that since the war on poverty started in 
1965, over $23 trillion has been spent directly, with over $1.7 
trillion of that specifically targeted to housing. Yet, we see 
what some view as a crisis in affordability, availability, 
which, frankly, impacts the affordability. And, Mr. Rowe, I 
wanted you to explore a little bit about, as you were talking 
about establishment of homes and education, what housing might 
mean to that stability, not only within a family but within a 
community, and what that means for your students.
    Mr. Rowe. Thank you for the question. For many of our 
families who may live in housing projects or other challenging 
housing situations, the idea of home ownership is something 
that is really important, especially for their kids. And they 
know that in order for their kids to be equipped with both the 
finances, the academic background, to be able to afford to move 
into a particular neighborhood, they want them to go to a great 
school.
    I will keep going back to the foundational element in 
school choice. I presume most of the folks on this call--I 
don't know everyone, but I presume most of the folks on this 
call, if you have children, you have had the ability to move to 
a good neighborhood where you had good access or maybe your 
children are in private schools or parochial schools. It is 
something that middle- and upper-income folks can take for 
granted, that our kids can go to great schools, and I think 
that is something we need to make accessible to kids of all 
backgrounds and all races.
    Mr. Huizenga. So, Mr. Rowe, are you saying that people 
actually make housing decisions based on whether the quality of 
their children's education might be enhanced or diminished?
    Mr. Rowe. That is probably one of, if not the first, 
certainly in the top three factors that drive housing decisions 
that people make. And for those folks who don't have the 
ability just to move to a different neighborhood, let's make 
the accessibility of fantastic schools as easily accessible as 
it is to middle- and upper-class communities.
    Mr. Huizenga. You have actually hit one of the main issues 
that, it is not just anecdotal, there are statistics behind 
this. Housing values are directly tied to quality of education, 
and there is no doubt that more affordable homes tend to be in 
less fruitful educational spots. And if we want to have equal 
access to housing and equal opportunity for jobs we need to fix 
this education part, and I commend you for what you are doing.
    There is this direct correlation. Way too often, out here 
in Washington, D.C., we think in silos, right? Well, here is 
education. Here is housing. Here is the economy. It is all 
intertwined, because we are humans. Our lives are intertwined. 
We don't become something else when we walk out the door to 
work versus who we are when we are at home, or go to our place 
of worship, or whatever else it might be.
    So have you been able to track sort of the outcomes of your 
students and sort of what has been happening with their 
opportunity for income?
    Mr. Rowe. Our first class started in 2005 of all girls, in 
kindergarten and first grade, and this year, that first class 
who started in first grade are graduating from colleges like 
Yale and Howard, this year. So, I am very proud of that. And I 
could go on, but my time is up.
    Mr. Huizenga. Thank you for your work.
    Chairwoman Waters. The gentlewoman from Ohio, Mrs. Beatty, 
who is also the Chair of our Subcommittee on Diversity and 
Inclusion, is now recognized for 5 minutes.
    Mrs. Beatty. Thank you, Madam Chairwoman, for holding this 
hearing at such an important time. And also, I would like to 
thank our distinguished panel of witnesses for being here 
today.
    Let me open by saying I really wish the pathway to economic 
success and access to capital was a simple as saying, if you 
are educated or if you get married, that will make that happen. 
We certainly know that many people who have law degrees, 
medical degrees, and everything else have been discriminated 
against. We saw, in the PPP, many businesses of many years, but 
they were Black. And when Black and other minority businesses, 
highly educated and married, were in the rules of engagement 
change. So, let's not make it that simple. While education is 
important--I don't know about the being married part and all of 
that--systemic racism exists, regardless of education, 
regardless of where you live.
    I could use myself and give you tons of examples about how 
I have been discriminated against, simply because I walked in 
the door and they saw a Black woman. I needed to say that, so 
that we just don't get off kilter, which is a great lead-in for 
me to go to you, Ms. Gonzalez-Brito.
    Within the next few weeks, we will likely be getting a new 
Comptroller at the OCC. At the top of the list of any new 
Comptroller's agenda is going to be the modernization of CRA. 
Do you have any recommendations to the new Comptroller as he or 
she prioritizes in a rewrite of the Community Reinvestment Act?
    Ms. Gonzalez-Brito. Thank you so much for this important 
question, Congresswoman. First of all, as I mentioned earlier, 
race-conscious CRA, or as my colleague, Mr. Robinson said, just 
CRA, it is incredibly important and that we measure how banks 
are serving BIPOC communities or if they are not, and if they 
are not, there should be consequences for that. We should NCRA-
grade inflation. We know that 98 percent of banks are passing 
their CRA exams.
    And then in terms of consequences for discrimination, 
consequences for displacement, financing displacement of 
communities or any kind of harm should be at the top of the 
list. And then we should, of course, encourage reinvestment in 
poorly served areas, so we are talking rural communities and 
Tribal lands. This should really be at the top of the list.
    And lastly, I would say that Comptroller needs to throw out 
the current OCC proposal that was done under the last 
Administration. Thank you.
    Mrs. Beatty. Thank you. The next question is for Mr. 
Robinson. During the last Administration, it was evident that 
they did not believe in enforcing fair lending laws. From OCC 
leadership reportedly overruling career staff and shelving home 
loan discrimination cases to the CFPB's refusal to acknowledge 
or bring any fair lending cases, it was plainly clear that the 
lenders had a license to discriminate as far as the regulators 
were concerned.
    Can you tell us how important it is to have diversity 
within our Federal agencies, and how does the lack of 
enforcement of fair housing affect Black and Brown communities?
    Mr. Robinson. Thank you for the question. The lack of 
access absolutely affects us at every single level, at every 
single phase of decisions, life decisions that families and 
individuals would like to make. Lack of wealth, the lack of 
access to capital, the lack of housing impacts us, and the fact 
of the matter is that policy doesn't matter if you don't have 
enforcement. It is not enough to simply raise the minimum wage 
if you don't protect against wage [inaudible]. It is not enough 
to deal with issues around lending if you don't have the 
necessary enforcement.
    So diversity absolutely matters, but diversity cannot be 
the only metric, because we can have people who represent 
diverse communities who come into the room with a perspective 
that isn't about enforcing the actual policies. So a focus on 
enforcement, with diversity included, will be incredibly 
important.
    Mrs. Beatty. Thank you so much, and I yield back, Madam 
Chairwoman.
    Chairwoman Waters. Thank you very much. The gentleman from 
Ohio, Mr. Stivers, is now recognized for 5 minutes.
    Mr. Stivers. Thank you, Madam Chairwoman. I appreciate you 
holding this hearing, and my first question is for Mr. Rowe. I 
want to follow up on something that Mr. McHenry started to talk 
about, Mr. Sherman talked about, Mr. Huizenga talked about, and 
Mrs. Beatty just talked about, and that is minority housing. 
Are you familiar with the Duke University study from a couple 
of years ago that says if we could enact policies that lift the 
minority home ownership rate to about what the White home 
ownership rate is, then we would reduce the minority wealth gap 
by 38 percent?
    Mr. Rowe. I am not familiar with that particular study, but 
I am supportive of ideas that help, particularly low-income 
folks of all races, raise their home ownership rate, not 
necessarily to equal that of another racial group--
    Mr. Stivers. I understand. But that was the measure they 
used as a benchmark. I don't have any other benchmark, other 
than I want everybody to have the opportunity to own a home, 
and I do know that it is a fact today that minority communities 
have lower home ownership rates, and that drives the disparity 
in wealth. So you would agree that is one of the drivers of 
disparity in wealth between minority families and White 
families, is that correct?
    Mr. Rowe. I do agree.
    Mr. Stivers. The lack of home ownership?
    Mr. Rowe. Yes.
    Mr. Stivers. The biggest savings opportunity in most 
Americans' lives, is that one of the things that is driving our 
wealth gap?
    Mr. Rowe. Home ownership certainly is one of the elements. 
That is why I support initiatives like means-tested baby bonds, 
so that every kid of low-income means essentially has a 
government trust fund that is added to every year, and at age 
18, you now have the restricted ability to pay for college, 
make a down payment on a home--
    Mr. Stivers. Buy a house.
    Mr. Rowe. --or start a business. Those are--
    Mr. Stivers. I love that. That is a very intriguing idea, 
Mr. Rowe. I appreciate it.
    I would like to dig into another piece of this. Are you 
familiar with any of the regulations either at FHA, FHFA, the 
GSEs, the Department of Agriculture, the VA, or even local 
building codes, that might be impacting home ownership by 
increasing the cost of homes or actually creating impediments 
for home ownership? And if so, can you speak to any of those 
regulations that we might want to look at? You and Mr. Sherman 
had an exchange about local building codes driving up cost. I 
know that is one of them. But I want to give you a very broad 
opportunity to talk on this issue.
    Mr. Rowe. Actually, I do not feel equipped to answer that 
at the Federal level.
    Mr. Stivers. No problem. Do you want to talk anymore about 
how local building codes drive up costs of housing?
    Mr. Rowe. The only thing I would say on the local front--
and I would encourage Representative Beatty to look at this 
data, because she had questions about the role of marriage and 
family--but the Raj Chetty study, the Land of Opportunity, that 
looked at 40 million tax records to understand the whole idea 
of intergenerational mobility, which included things like home 
ownership, said that for the Black community, in particular, 
while the macro-level was not very good, when there was a 
father present, or married two parents in the neighborhood, 
massive differences in economic mobility. And I think it is 
very important we continue to come back to, what are the 
foundational ideas that have contributed to the success of low-
income people of all races? That includes family structure, the 
strength of educational choice, and those are typically 
ingredients that, if we are looking at a policy level, how do 
we do things like means-tested baby bonds, that helps to level 
the playing field for people of all races who are in low-income 
conditions?
    Mr. Stivers. So when socially disadvantaged people of all 
races happen to live in the areas that have the lowest-
performing schools, tell me what that does to the 
intergenerational poverty?
    Mr. Rowe. If we talk about policies that have 
disproportionately negative impacts on kids of color, lack of 
school choice is one of them. So again, most people on this 
call probably, if you have kids, you have moved to a 
neighborhood that has good public schools, or you put your 
child in a private school or parochial school. Let's give that 
same power to people who live in low-income communities across 
the country.
    Mr. Stivers. The real issue here is the low-performing 
schools in the communities of poverty, and school choice just 
would happen to be one of the solutions.
    Mr. Rowe. Correct. Underperforming schools are part of the 
issue. Let's find better options.
    Mr. Stivers. Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you. The gentleman from 
California, Mr. Vargas, is now recognized for 5 minutes.
    Mr. Vargas. Thank you very much, Madam Chairwoman.
    Madam Chairwoman, first of all, thank you for holding this 
hearing. I do think it is historic. You may have been away at 
the moment when they spoke about this, but I do think it is 
historic. I think it is so important. I couldn't be more 
thankful. The title of the hearing is, ``Justice For All: 
Achieving Racial Equity Through Fair Access to Housing and 
Financial Services,'' and listening to some of my colleagues, 
you would almost think that we have already achieved it. But I 
can tell you, I was here on January 6th, and I know that we 
haven't achieved it.
    And not only that, but I can tell you this. Even the 
opportunities that were provided through the PPP loans, we saw 
that the first ones went out to the preferred customers that 
the banks had. A lot of the minority small business owners and 
women-owned businesses, when they went to apply for the loans, 
the money was gone. So we had to, once again, re-up to help 
them. You can see, once again, the preference that was given to 
these established customers, who were mostly White--let's be 
frank. So I think that racism, unfortunately, still exists and 
it is still very, very prevalent.
    I also believe very much in hope. I really do. I preach 
hope. I believe in hope. I believe in change, and I do think 
that we are changing. Mr. Green went through a whole bunch of 
the bills that we are going to be looking at, and I was going 
to do that myself. He did it. But I am so happy that he did 
that, because I think that good law is on the way.
    Now, I also have to say that we have seen the redlining, 
the restricted covenants. We have seen all of these historical 
elements that really were racist in their purpose--when you go 
to buy a house, and they say, ``Don't buy there. Buy over here, 
because that is where the Mexicans live,'' or, ``That is where 
the Mexicans are going to live,'' and that is problematic. And 
I heard, ``No, that's not true. All you look at is the green 
money. They don't care who the people are.'' That is not true. 
The reality, in real life, is people talk about communities, 
and you also see, in real life, who loses when there is a 
downturn in the economy.
    Now, one of the things I wanted to talk about is 
opportunities for people who haven't had the opportunities 
because of systemic racism, and I would like to talk about the 
down payment, in particular. One of the things that we see is a 
lot of people, especially people of color, would be great 
homeowners, paying their mortgage, but they can't come up with 
the down payment. The down payment is the problem.
    So what can we do about that, because I think that is huge. 
Who would like to handle that? How about Mr. Robinson? The down 
payment issue, can you talk a little bit about that?
    Mr. Robinson. The down payment issue is huge, and when we 
actually look deeply at issues of wealth, this is where issues 
of wealth play in, in a very clear way. And there is a lot of 
talk around education and around sort of hard work, and you 
can't educate and hard work yourself out of wealth gaps. You 
simply cannot.
    A study by the National Asset Scorecard found that even 
with college degrees, Black Americans still had about 33 
percent less wealth than White families, the heads of whom 
dropped out of high school. The 33 percent, that is the 
investment, and this conversation that we can simply educate 
ourselves out of systemic racism, stands directly in the face 
of the actual data, and actual data of young people who are in 
first grade, who are in kindergarten right now, and are moving 
into a society that is going to treat them very differently, 
with very different results, with systems that will treat them 
differently. Our system is not broken. It is operating the way 
it is designed, and we have to do the work to actually fix it.
    Mr. Vargas. That is what I would agree with, very, very 
much, everything you said, the last part in particular. I think 
that Ms. Gonzalez-Brito said it. Most people of color have to 
overcome these barriers. We should remove them, remove the 
barriers. That is the whole point. And that is why I think 
these bills are so important.
    And I guess I would lastly add this, that the wealth that a 
lot of people have been able to accumulate, generationally, you 
are able to give, then, your kids a down payment. But if you 
weren't able to do that because of historic racism then you 
don't have the ability to give your kids the down payment that 
they need to buy a house. And that is something that we should 
address, because a lot of that comes directly from [inaudible] 
laws that we have.
    Thank you, Madam Chairwoman. I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Kentucky, Mr. Barr, is now recognized for 5 minutes.
    Mr. Barr. Thank you, and thank you, Ms. Bailey, for your 
testimony today. My question to you is, do banks have a 
responsibility to make decisions about whether to provide a 
person with financial services on the basis of impartial 
criteria, free from prejudice or favoritism?
    Ms. Bailey. Banks have a responsibility to comply with our 
nation's fair lending laws, sir.
    Mr. Barr. And, Mr. Robinson, should banks be allowed to 
engage in a strategy of total avoidance of an entire category 
of customers, even if those customers are creditworthy?
    Mr. Robinson. No, they should not be able to. They should 
comply with the law.
    Mr. Barr. Mr. Yang--and I appreciate, Mr. Robinson, your 
testimony as well--should a bank ever predicate access to 
financial services on factors or information other than 
quantitative, impartial, risk-based standards?
    Mr. Yang. Banks should follow the laws as they currently 
exist and as we can improve them.
    Mr. Barr. So, to the three witnesses who just answered that 
question, should prejudice or favoritism be in any way part of 
decisions about providing financial services? And any one of 
you can answer that question.
    Ms. Bailey. Why don't I kick it off? I think what we have 
to understand, since we are having this conversation about 
systemic issues, is that some families actually received a 
benefit that really helped them have an economic cushion to 
weather financial change. So when we are talking about racial 
justice and racial equity in lending, we are not pitting one 
community against the other. In fact, we are trying to lift up 
the entire--
    Mr. Barr. No, again, Ms. Bailey, I reclaim my time. 
Prejudice and favoritism. It seems that your testimony, Ms. 
Bailey, Mr. Yang, and Mr. Robinson, is that banks have a 
responsibility to make decisions about providing financial 
services free from prejudice, free from favoritism.
    And here is my concern, Mr. Rowe, is that the Treasury 
Department is currently actively considering a policy to 
pressure banks to categorically deny credit to disfavored 
businesses, and specifically, businesses that they deem to 
create risk to the financial system imposed by climate change.
    Here is my concern for minority workers. My concern is that 
a recent estimate found that of the total 1.3 million jobs in 
industry operations for investment in oil and gas, 27 percent 
were occupied by African Americans or Hispanics, with 376,800 
jobs in oil and gas.
    Mr. Rowe, would redlining that denies a minority-owned 
business or a business that employs minority workers be 
acceptable if that redlining is mandated by Federal policy, for 
example, a policy issued by the Department of the Treasury or 
another Federal financial regulator, ostensibly to reduce the 
risk to the financial system imposed by climate change?
    Mr. Rowe. Just in general, we should not have policies that 
discriminate on the basis of race. The Title VI provision of 
the Civil Rights Act of 1964 should hold across all of these 
policies.
    Mr. Barr. I think that is very important. I think it is an 
admonition to the Biden Administration, Treasury, the Fed, and 
to other financial regulators that when they pressure financial 
firms to categorically deny access to credit to certain 
industries, including industries that employ high numbers of 
minorities, that is akin to the kind of racial discrimination, 
the kind of redlining that our witnesses today are fighting. 
And I applaud the witnesses for opposing redlining, and I think 
we ought to oppose redlining in all forms, including blatant 
policies of discrimination against broad categories of 
industries, not based on credit risks but based on avoiding 
financial services to broad categories of customers, because 
they are politically incorrect. And I think that is very, very 
important.
    Final quick question to you, Mr. Rowe. Rural banking--I am 
worried that in the last decade, 51 percent of counties saw a 
net decline in bank branches, and that especially affected 
rural counties. We saw 50 percent of branches closing in deeply 
affected counties, and 89 percent of those counties were rural, 
including in my district. What can we do to increase access to 
banking and financial services in those rural counties, Mr. 
Rowe?
    Mr. Rowe. Again, I am not an expert on rural, but I have a 
similar belief that if you look at rural counties' outcomes, I 
would make a first investment in strengthening schools in those 
areas.
    Chairwoman Waters. Thank you very much. The gentleman from 
Colorado, Mr. Perlmutter, who is also the Chair of our 
Subcommittee on Consumer Protection and Financial Institutions, 
is now recognized for 5 minutes.
    Mr. Perlmutter. Thanks, Madam Chairwoman.
    And if I ask some questions that go over some old ground, I 
apologize. I was on the phone with a bank CEO, talking to that 
CEO about diversity in their [inaudible].
    So, Ms. Gonzalez-Brito, I would like to start with you. You 
touched on this in your opening remarks and you may have asked 
some questions, or you may have answered some other questions, 
but the Office of the Comptroller of the Currency finalized a 
rule making significant changes to the CRA. OCC's approach has 
faced criticism from public interest groups, including yours.
    Would you like to comment on what went wrong in the OCC's 
approach and how is the Federal Reserve's approach different?
    Ms. Gonzalez-Brito. Thank you for that question.
    One of the concerns that we have with the OCC's approach is 
that they really disregarded the comments by the public and 
that was not only evidenced in how quickly they turned around 
the rule with thousands of comments that had been submitted, 
but also in the fact that they then put forward a rule that 
would actually diminish the community input as CRA was 
implemented going forward.
    And then as I mentioned earlier, ending CRA grade 
inflation, ensuring the rates just CRA used, to use Mr. 
Robinson's words, and then, with the Federal Reserve, we would 
like to see, we do see a proposed rule that takes into account 
race, but it doesn't go far enough. We want to ensure that the 
Federal Reserve both unifies all three agencies together, and 
that they all come out with the same rule, but that they 
actually begin to measure whether banks are actually serving, 
lending, and investing to communities of color, and that they 
take that into account in their CRA exams and that they 
evaluate banks.
    Mr. Perlmutter. Thank you for that answer. You covered the 
other question I was going to ask you about the differences 
among the OCC, the Fed, and the other, so thanks.
    My next question really is more general in nature for Mr. 
Robinson, Mr. Rowe, and Mr. Yang. I guess the concern I have in 
what I felt you left out, Mr. Rowe, in your list of factors, 
you talked about education, and community, but what I am 
hearing from pretty much everybody is that there is the factor 
of history/inertia that sort of perpetuates things, whether you 
think you are doing it or not.
    So, Mr. Robinson, you kind of talked about that, the wealth 
gap and not having money for a down payment. Can you expand on 
sort of the history and the inertia that puts people behind, 
and that is why you need diverse leaders in senior leadership?
    Mr. Robinson. We have a situation where there have been a 
lot of winners in our economy who have won because the rules 
have been designed for them to win. And then, we set up this 
sort of analysis that they have won because they have done 
something so much better than other folks who have been held 
behind.
    And this conversation about how we move forward, how we do 
the investments, how we do the enforcement, how we actually 
have diversity in the enforcement, is critical to actually 
getting results that provide opportunity for everyone. Right 
now, our system has produced a whole set of inequality and it 
has been manufactured and the choice for Congress is, how do we 
actually use the tools of policy and use the tools of 
enforcement to actually move this country forward?
    And there is so much opportunity here to actually do that 
if we, as so many of the Representatives stated in their 
opening statements or in their questions, that they agree that 
racism exists. If we agree that racism exists, and we can see 
that a Black, college-educated household has less wealth than a 
White dropout household, then we have to actually do something 
about it and not just tell people to work harder, fight harder, 
or entrepreneur better.
    Mr. Yang. If I might briefly add, when we are talking about 
history, we need to include that Asian Americans lost land, the 
Japanese Americans lost land in World War II because of so-
called dual loyalties to Japan. We have had exclusionary land 
loss, so we need to make sure we understand that history and 
understand what data we need now to drive that policy forward.
    And there, I want to emphasize that the Asian-American 
community is largely invisible to everyone in terms of what it 
is that our community needs, and we need more investment in 
that community.
    Chairwoman Waters. Thank you.
    Mr. Perlmutter. Mr. Rowe, I'm sorry. I won't get to you.
    I yield back to the Chair.
    Chairwoman Waters. Thank you. The gentleman from Texas, Mr. 
Williams, is now recognized for 5 minutes.
    Mr. Williams of Texas. Thank you, Madam Chairwoman.
    Competition, innovation, and free markets are the keys to 
building net worth and ending the racial-wealth disparities in 
this country. We need to be reducing regulations and bringing 
down taxes, so the individuals have more opportunities to take 
control of their own futures.
    And we saw it happen during the Trump Administration when 
African-American unemployment was at an all-time low. Hispanic 
unemployment was at an all-time low. Female unemployment was at 
an all-time low.
    Employers had to compete for workers. I had to do that very 
thing in my business, which raised wages.
    Banks were willing to lend money at low interest rates so 
people could get loans and entrepreneurs did not have to worry 
about crushing regulations so they could take a chance and bet 
on themselves.
    We should be focusing our attention on these policies that 
have a proven record of success.
    Mr. Rowe, can you talk about how the free markets can help 
build people up instead of having the government try to 
legislate equity and put them down?
    Mr. Rowe. The basis of a free market starts with strong 
families and strong schools and usually a faith commitment. Mr. 
Robinson is right when he says that education alone is not the 
only answer here.
    That said, if we study the success of people of all races, 
what were the series of decisions that allowed them to flourish 
in a free market? The foundation of that was high-quality 
schools, then it is full-time work of any kind just so you 
learn the dignity and discipline of work, and the timing of 
family formation, it matters.
    This series of decisions, there is no silver bullet here, 
but if we want our citizens to be able to flourish in a free 
market, have access to capital to buy a home, to start a 
business, to pay for college, you have to start thinking about 
these issues much earlier, and I think school choice is one of 
several interventions that are crucial to a long-term solution.
    Mr. Williams of Texas. Thank you for those comments.
    Also, Mr. Rowe, your testimony talked a lot about education 
and the importance of teaching our children a strong work ethic 
and dignity of work. I completely agree with you on that, that 
we need to be instilling these values in our children so they 
can grow up knowing they can be successful in America, 
regardless of the circumstances they were born into.
    One thing I think we must recognize is that traditional 
school is not for everyone. Not every child succeeds at writing 
reports and doing endless math problems and it doesn't help 
these individuals take on debt and struggle through the four-
year college to get a degree. We see plenty of that.
    I have been advocating for more career- and technical-
education programs to be available to high school students so 
they realize they don't need to go to college to make it in 
America. There will always be demands for plumbers, 
electricians, and other skilled workers across the country, and 
we needed a lot of that in Texas last week.
    So, Mr. Rowe, do you have any thoughts on how we can better 
educate high school students about the options they have 
available to them, other than a traditional four-year college 
education?
    Mr. Rowe. Absolutely. And, in fact, I am launching a new 
network of international baccalaureate high schools that will 
have two pathways: one is the diploma pathway; and the other is 
called the careers pathway.
    The diploma pathway will be designed for a more traditional 
access to a four-year college or university. In the other 
pathway, which students can choose at the end of tenth grade, 
they can choose a particular industry sector.
    When I went to Brooklyn Tech, there were 18 different 
majors. I majored in electrical engineering in high school.
    In the high school that we are now launching, we are going 
to start with computer science, construction/architecture, and 
probably a media component. And the idea is to have corporate 
partners in each that you can have internships during high 
school, so that if you choose at the end of 4 years of high 
school, you can get an industry credential with a labor market 
value, meaning you can get a good-paying job right out of high 
school.
    Parents need the power to be able to choose great schools 
like that if that is what they want for their kids. And, again, 
it is not just about education, but it is a foundational 
element to everything that ultimately will be in the control of 
the young person to decide how they do want to be a master of 
their own destiny.
    Mr. Williams of Texas. We have millions of children 
dropping out of school in the ninth grade across the country, 
and, frankly, in my State of Texas, and they are losing hope 
and they shouldn't. And what you are talking about and what I 
am talking about can get them through where they hire their 
friends when they get out of school, have a degree, start a 
business, become a taxpayer.
    Thank you very much, Madam Chairwoman. I yield back.
    Chairwoman Waters. Thank you very much, Mr. Williams.
    The gentleman from Florida, Mr. Lawson, is now recognized 
for 5 minutes.
    Mr. Lawson. Thank you, Madam Chairwoman. I am really happy 
that you are having this hearing, and I want to work with the 
panel here.
    My first question is to the whole panel, and it is about 
the fact that access to capital, credit, and financial services 
is often based off of a person's credit score. In this 
committee, we have discussed other options, such as character 
assessment. Those are very important words, ``character 
assessment.''
    Our community developed corporations in South Florida have 
used a character loan process instead of credit scores to make 
housing-related loans without a single default in 14 years. And 
I saw earlier, Congressman Posey on there. He is probably 
familiar with that. We worked together in the Florida 
Legislature.
    Kentucky Community Developed Financial Institutions have 
used character laws to make 1,500 small business loans. There 
are more than 100 businesses led by the entrepreneurship in 
their local Chamber of Commerce.
    Do you believe people with longstanding relationships with 
barrios, rather than poorly understood algorithm-based credit 
scores can and should be used rather than credit scores to help 
secure loans and promote access to capital? What do you see as 
the benefits and what do you see as the pitfalls, if any?
    And that is for the whole panel.
    Ms. Bailey. Great. Thank you for the question.
    I would agree that character should be an important part, 
and from watching our nation's history when homeownership 
opportunities were extended, that is how so many White families 
had an opportunity to get into the mortgage system. Their 
credit and their character were determined to help really fund 
and make those determinations.
    Credit scoring is a really new phenomenon. It is part of 
our first kind of artificial intelligence that we like to think 
about, and it bakes in the history of discrimination.
    So, another panel had a hearing and one of the panelists 
there said something along the lines of, wealth begets wealth 
and a lack of wealth begets a lack of wealth.
    Our credit-scoring systems actually mirror that; they 
factor in a great deal of the history of wealth and the history 
of discrimination. So, I think you are highlighting something 
that really is critical.
    And we need to see other variables taken into credit 
scoring. Homeownership is most amenable to renting. For many 
families, their rental history is not even a factor in their 
ultimate credit score.
    So, you are definitely taking us in the right direction 
when you are getting us to consider what the five Cs of credit 
should really include, including character, or other 
evaluations that are not discriminatory and that perpetuate 
discrimination in the way that credit scoring does.
    Mr. Lawson. Okay. Next?
    Ms. Gonzalez-Brito. I would just agree with Ms. Bailey, to 
not take more time. I think she hit the nail right on the head.
    Mr. Lawson. Okay. I would like to know what Mr. Rowe would 
say about this.
    Mr. Rowe. If you are referring to the ability for local 
banks who have a deep relationship in the community, know the 
residents, absolutely, you would want them to take into account 
a full set of information to make decisions, because after all, 
we need these banks to be going-concerns and making good 
investments and good loans. And so, to the degree that they 
are, and, again, running schools in the heart of the South 
Bronx, I know many local entrepreneurs that I would invest in, 
that the credit score would just be one piece of information. 
But that is the power of local decision-making.
    So, if that is what you are talking about, absolutely. That 
would be a good local bank that is having a generative impact 
in the local community.
    Mr. Lawson. Okay. Would anyone else like to respond?
    Ms. Bailey. If I just may get back at this point about 
education, I really need to stress that education has not 
served as the great equalizer. Unfortunately, as Mr. Robinson 
has pointed out, we know that Black students typically graduate 
with greater levels of debt, and that even after graduation, 
they see their debt loads increase.
    We also know that many White students get funding from 
their parents because of intergenerational wealth transfers to 
pay for their college education, and, unfortunately for many 
Black and Latino and Hispanic students, they actually end up 
having to support their families post-graduation.
    We also know broader societal discrimination means that 
these people are going to be paid less, so that historically, 
we have seen them not be able to accumulate down payments from 
their savings because of overall systemic discrimination.
    Mr. Lawson. And so, in a follow-up to you, and I know my 
time is getting close, is with the situation that was talked 
about earlier through the loan debt--well, my time is running 
out.
    And I yield back.
    Chairwoman Waters. Thank you, Mr. Lawson.
    The gentleman from Arkansas, Mr. Hill, is now recognized 
for 5 minutes.
    Mr. Hill. Thank you, Madam Chairwoman.
    I thank my colleagues and I thank our panel for this good, 
candid, robust discussion of a super-important aspect of our 
public policy responsibility at the House Financial Services 
Committee. I have learned a lot in this hearing, and again, I 
thank the panel for their participation.
    Let me start by saying that everybody in our committee--
Democrat, Republican, old, young--rejects racism and we know 
our Federal laws and our regulatory body, particularly since 
the 1960s and the Civil Rights Act forward, have done an 
outstanding job in creating a culture and a demand that people 
do not discriminate in financial services, and yet, the problem 
is challenging, and the problem can persist.
    So, let's all agree that we are all working within our 
regulatory and legal system to root out discrimination in 
financial services.
    Let me also say as someone who spent, really, the better 
part of my career in financial services since the 1970s, I have 
to say that banks and brokerage firms work very hard to fully 
comply with their moral obligation and their per se and de jour 
obligations under those laws.
    Of course, there are bad actors out there, and that is why 
we go after them legally and through all of the efforts that we 
talked about today.
    My friend, Mr. Lawson, talked about credit scoring, and I 
really enjoyed the character lending discussion. I have to say 
in my 4 decades of community banking, character loans have 
become fewer for a person of any age, race, or sex. They have 
been essentially ground out of the system by regulation, 
essentially, to eliminate them, to be perfectly candid.
    So, I am glad Mr. Lawson has an instance where, through a 
community development foundation or some unique focuses that 
are being made, I think they are a big, important part of 
getting started in business for any person, but due to consumer 
compliance rules, they effectively have been eliminated.
    And on credit scoring, that is part of making or removing 
character from it or reducing it and really going to the mat 
with credit scoring. I agree that should be improved. I have 
had bills to expand the information available for credit 
scoring, such as on-time rental payments or insurance payments 
or utility bills; these are ways to enhance credit score 
information.
    Mr. Rowe, do you support that kind of enhancement to our 
traditional look at credit scores?
    Mr. Rowe. Yes, I think, to some degree, it introduces a 
level of subjectivity, but as we spoke about before, banks need 
the freedom to make informed decisions which could include 
credit scores, deep relationships, track records, consortiums, 
and the innovation of the people coming forward. So, I think I 
would be very much open to that because I think that is the 
essence, especially of local decision-making, where you can 
take into account many more factors than, frankly, people at 
the Federal Government can decide or know better what better 
investments--
    Mr. Hill. Thank you for that.
    I also looked at the bill list attached to this hearing. I 
was disappointed, like my friend, David Scott, and my good 
friend, Dr. Foster, that our financial literacy bills were not 
attached. I was an original co-sponsor of both Representative 
Foster's and Representative Scott's financial literacy bills. 
Those are good bills, and they help build that economic 
literacy that we need.
    Mr. Rowe, I was really intrigued by your comments about 
charter schools. We have public charter schools in Little Rock; 
they have been a great enhancer to low-income students' access 
to a quality education in my home area of Little Rock, 
Arkansas.
    But we are also doing something that perhaps you have 
inspired--we are taking the 44,000 students in Little Rock, 
North Little Rock, and Pulaski County schools and we are 
completely changing their curriculum. And these predominantly 
minority school districts, now, in these public school systems 
in that county. And the forward NGL, we are going to mix both, 
workforce inspiration, career development, and financial 
literacy, and economic education all in a mandated curriculum 
for those schools, K-12.
    Is that something that you think is a direction other 
school districts are using?
    Mr. Rowe. I think that is a wise direction, to create more 
choice within the public school system. College is not the 
mandated destination for every single student and, frankly, as 
a country, you have less than 40 percent of people with college 
degrees as it is. So, it is just being practical to recognize 
that our curriculum in school systems should be designed to 
create choice for the graduates who get out, which means 
parents need choices for what types of schools that they would 
like their kids to attend.
    Mr. Hill. I appreciate your response.
    Thank you, Madam Chairwoman, and I yield back.
    Chairwoman Waters. Thank you.
    The gentleman from Guam, Mr. San Nicolas, is now recognized 
for 5 minutes.
    Mr. San Nicolas. Thank you, Madam Chairwoman.
    I am the delegate from Guam, a U.S. Territory, and we are 
all Americans.
    I want to begin first by recognizing you, Madam Chairwoman. 
You are the first chairwoman to bring a Territory onto an 
exclusive committee, this Financial Services Committee. You 
brought Guam to the table. You brought Territories to the 
table. I am also the only Asian American Pacific Islander on 
this committee.
    And so, as we discuss these bills and as we discuss the 
topic of this hearing, I think our presence here with Guam and 
this committee is proof positive of the importance of us to 
really focus on bringing diversity into leadership, because the 
voices and the advocacy can absolutely be transformative and 
the perspectives that we are all considering when we are 
developing policy here in this committee and throughout this 
country.
    And I preface all of this because the stain of history, the 
stain of racism does not go away just because we have now 
changed the policies that made those realities occur in the 
past; those things still remain. And case in point, is the mere 
fact that even today, a Member of Congress still referred to 
Guam as a foreign country, and made a claim that we should not 
be getting aid under the COVID packages that this body has been 
entertaining.
    And I would like to thank my colleagues on this committee, 
and I would like to thank you, Madam Chairwoman, as you know, I 
reach out to you regularly, for all of your help in making sure 
that the Territories and that all Americans, regardless of 
where we live and what our ethnicities are, are included in 
these relief packages.
    These stains that do not go away are stains that still 
remain in our financial system, and so I wanted to afford our 
witnesses an opportunity to speak specifically to that, because 
the legislation that we are entertaining at this hearing and 
the discussions that we are having at this hearing aren't just 
to address discrimination and racism today, but also to address 
this stain that has held back people for generations. If you 
have been redlined in the past, just because you are not 
redlined today does not mean that you didn't suffer a lack of 
appreciation in your real estate that is now putting you at a 
disadvantage if you want to go and move to a better school 
district. Those kinds of historical stains are things we still 
need to address today.
    And so, I would like to begin with my fellow AAPI, Mr. 
Yang, and afford him the opportunity to speak toward these 
stains and what we need to do today to address them.
    Mr. Yang. Thank you very much for that question.
    That is absolutely right. All of us bring together the 
history of discrimination that all of us have suffered in 
disparate ways, but it is important to recognize that. I 
mentioned the fact that Japanese Americans' property, their 
businesses were taken away in World War II because of Japanese 
incarceration. I mentioned the exclusionary land laws that did 
not allow Asian Americans to own land. The fact that Asian 
Americans could not become citizens until around World War II 
in many parts also created a situation where we could not own 
land or even rent property at times.
    So, that is part of the history. It is actually, in many 
cases, very recent history that we are combatting, so that has 
an effect that we must remember.
    The other aspect I want to mention is that, just as 
Representative Huizenga talked about his learned experiences, 
his lived experience as a REALTOR, which are valuable for this 
committee, all of our lived experiences as people of color are 
important for this committee to remember as we think about 
those policies.
    And the last thing I would say is I appreciate 
Representative San Nicolas lifting up to make sure the Asian-
American community is not invisible in all of this, and the 
Pacific Islander community is not invisible, and all of the 
Native American community. We have not talked at all about them 
yet, but with respect to financial services, with respect to 
housing, there are dramatic needs that should be addressed 
there that I would ask this committee to consider.
    Mr. San Nicolas. Thank you, Mr. Yang.
    This year, 2021, marks the 500th year of colonialism on 
Guam, with Ferdinand Magellan planting his flag on March 6th of 
this month and making Guam a colony of Spain, and so, Ms. 
Gonzalez-Brito, we are also brethren as people who can trace 
our lineage back to colonialism.
    Can you also speak towards these historical stains and the 
need for us to do what we can to make things right today?
    Ms. Gonzalez-Brito. Thank you so much for that question.
    We are the survivors of genocide and colonialism and we 
carry that in our DNA and both, in the struggles that we wage 
today. And that is why, I think, when we think about land and 
displacement, that is the struggle that continues for 
generations and hundreds of years.
    I want to say something about what Representative Barr said 
earlier--I'm sorry, I'm out of time.
    Chairwoman Waters. I'm sorry, your time is over, and I have 
to get to Mr. Davidson, who is now recognized for 5 minutes, 
but thank you.
    Mr. Davidson. Madam Chairwoman, thank you for recognizing 
me and thanks for just holding the hearing. Obviously, it is a 
very important topic for our country, and Lord willing, our 
nation will, at some point, heal from the racism. And part of 
that means acknowledging it, but the other part of it means 
taking a different course in policies.
    One of the things that seems common sense to me is that 
racism today isn't a way to heal past racism, so I think it is 
important that we look at the policies that we are talking 
about today and look at the disparity in race and address root 
causes. For a long time in our country's history, obviously, 
race at our founding, race was supposed to be addressed after 
the Civil War and reconstruction failed and that resulted in, a 
100 years later, the Civil Rights Movement.
    We have come a long way and we still have a long way to go. 
And right now, it is not the official policy of the Federal 
Government, for example, to segregate in their housing policy, 
but we know we have disparate effects as a result of some of 
our policies.
    It clearly wasn't the official policy of the Payroll 
Protection Plan to slow-walk forgiveness of loans for anyone, 
but I noticed that minority communities are particularly 
struggling with having their Payroll Protection Plan loans 
forgiven. I am curious why that is.
    And part of the issue is structural. We put the incentives 
for the banks that make these loans to get them out quickly. 
They got paid for making the loans, and then we followed up 
with multiple iterations of variations on the original Payroll 
Protection Plan and we made it so banks could continue making 
Payroll Protection Plan loans.
    Even in this latest bill, I tried to offer an amendment to 
bills at the end of the year and this most-recent one and was 
not permitted to offer an amendment that would have said, if 
banks want to make a loan under these new terms, they have to 
have at least 80 percent of their book of existing Payroll 
Protection Plan loans made.
    We didn't have a process that allowed that kind of debate 
and dialogue, and I think that is why it is important that this 
legislative body actually function, not just as a power play 
for the Majority, but so that every member has the opportunity 
to represent his or her district and get a discussion and a 
vote on some of these amendments.
    I think that is one that would have passed, because what we 
see is in Payroll Protection Plan loans, we have far too many 
that aren't yet forgiven, and businesses cannot move forward 
with new loans if they haven't been able to get the previous 
ones forgiven. And the reality is that is hitting the African-
American community harder than it is other communities.
    But it is hitting all of our businesses. In the 8th 
District of Ohio, the Payroll Protection Plan was very 
successful. We made about 9,000 loans out of the program; 80 
percent of them were for $150,000 or less. And those loans kept 
over 100,000 people in our district on payroll.
    What did that mean? Well, not only were they getting a 
paycheck, regardless of how the overall business was performing 
at the time, they were largely continuing to get their 
healthcare benefits and other benefits with the workplace. And 
so, as conditions have improved, in some cases, far faster than 
the policies imposed by governors have improved, the business 
was in a position to recover more because their workforce was 
there.
    Now, to keep those businesses healthy, regardless of the 
level of diversity in the business, they have to be able to get 
these loans forgiven and be able to get back to having a strong 
balance sheet. We have to get our economy open and we should do 
that in a way that recognizes the impact.
    When you think about it, we have talked a lot about 
financial literacy and that is an incredibly important topic 
for all Americans. The minority communities seem particularly 
underserved, and in our committee, we have talked a lot about 
board diversity, particularly with publicly traded companies.
    Mr. Rowe, do you believe that race and gender are the most 
important forms of diversity in building a board composition? 
Do you believe that there are other aspects of background or a 
variety of viewpoints or experiences should be treated as 
important characteristics of diversity?
    Mr. Rowe. Well, yes. Diversity has several prefixes. You 
could have racial diversity, gender diversity, viewpoint 
diversity. I think most boards have to determine for 
themselves, what is the expertise that they want to achieve 
that would be most beneficial for their business.
    I aim to run schools almost exclusively with kids of color, 
so we are going to be developing lots of talent for those 
organizations that want a more racially diverse component to 
their boards.
    Mr. Davidson. Thank you for that.
    Chairwoman Waters. Thank you.
    Mr. Davidson. And I would just note that the Supreme Court 
finally got someone who wasn't an Ivy League graduate and that 
is an important--
    Chairwoman Waters. The gentleman's time has expired.
    Mr. Davidson. I yield back.
    Chairwoman Waters. The gentlewoman from Iowa, Mrs. Axne, is 
now recognized for 5 minutes.
    Mrs. Axne. Thank you, Madam Chairwoman.
    And thank you to our witnesses for being here today about 
this important topic, especially after the year we have seen. 
The disparities after, our partial recovery so far have been 
enormous, and we have to address these things if we truly want 
to see an equitable recovery.
    I will tell you, it is tremendously disheartening to see 
statistics that the Black-White wealth gap is the same as it 
was in 1968. Just as wide. And with the median household income 
for White families having 11 times that than the median Black 
household even before the pandemic. So, it is time that we look 
at solutions wherever we can.
    Just a couple of weeks ago, I had a roundtable with a group 
of Black business owners in Iowa and one of the most consistent 
themes was that they all came to the table saying they couldn't 
get access to credit for their businesses.
    Just this morning, I had a conversation with a young man 
who is extremely talented, Marques. He is a music artist, but 
he is also now moving into entrepreneurship for the development 
of whiskey. He had a $250,000 profit, purchase order through 
one of our grocery stores that is a very well-known grocery 
store that folks would know; they are going to pay this guy and 
they are going to sell the whiskey if he can get the loan. But 
he needed about $50,000 in materials to produce it and he could 
not get a loan anywhere. This is the kind of problem that we 
are facing across this country and in States like Iowa.
    So, Mr. Robinson, in your experience, what are some of the 
reasons for this disparity and what do you think are some of 
the possible options?
    Mr. Robinson. One of the main reasons for the disparity is 
that we don't have clear enforcement or accountability. We have 
rules on the books, and some of them are deeply inadequate, but 
there is not the level of accountability and consequence when 
institutions discriminate. There is not the evaluation and 
amplification of that.
    And then, there is a kind of culture of denial around what 
we clearly see in front of our face, which is a situation that 
produces, time and time again, different outcomes, and then we 
search, as a country, for reasons to explain it that are 
outside of the things that sit right in front of our face, 
which is when racial discrimination sort of consistently 
exists, we see different outcomes for the communities that are 
harmed and targeted.
    And the other thing I would just say is we will explain the 
problem the wrong way. We will say Black people are less likely 
to get a loan from the bank instead of saying banks are less 
likely to give loans to Black people; thereby, concentrating on 
what is wrong with Black people, rather than dealing with the 
structural challenges inside of our banks.
    Mrs. Axne. Thank you for restating that in the way that it 
should, and we all should make sure that we talk about it from 
that perspective, as well.
    There's one other question I wanted to ask you. I have some 
experience in human resources and I have had concerns about 
algorithms that kick people out of getting jobs. I know that 
they are looking at algorithms now for banks to be able to look 
at applications, to come in. And I have a feeling that if we 
don't get this credit opportunity figured out, they are going 
to create algorithms that automatically go into place in banks.
    Do you see this as an issue that you are hearing about and 
how do you think we can address this?
    Mr. Robinson. We already know, whether it is the big 
technology platforms, whether it is the sort of data-mining 
companies and the companies that sell data, that there are deep 
challenges in how they set up their structures, and how those 
structures then deliver their products. And time and time 
again, we will see all sorts of discrimination. We have seen 
lawsuits that have had to be settled by some of these companies 
from the ACLU, the National Housing Coalition, and others.
    And so, time and time again, we recognize that what ends up 
happening is that bad data in becomes bad data out, because we 
have these ideas about risk, these ideas about who is worthy, 
and that gets baked into the data. So in some ways, what this 
technology does is it just allows us, in many ways, to 
discriminate quicker and to discriminate sort of at a deeper 
and higher level because the technology just allows us to move 
more expeditiously.
    Mrs. Axne. And I think to overlook some great 
opportunities, not just for those individuals, but for our 
communities, as a whole. So, I appreciate you saying that.
    One more question for you. Are some efforts more successful 
in areas with larger minority communities, rather than in ones 
where we have smaller minority populations like Iowa? We don't 
have a lot of MDIs, so I am wondering what you think would work 
best in States like ours?
    Mr. Robinson. I think that this is actually where 
innovation and the partnership between communities and 
institutions will be very helpful. I do think that you are 
absolutely right. As someone who grew up in a more rural 
community, we did not have these kinds of community banking 
institutions. And my family's sort of path from poor to working 
class to middle class couldn't include those institutions.
    Mrs. Axne. Thank you so much.
    Chairwoman Waters. Thank you.
    The gentleman from North Carolina, Mr. Budd, is now 
recognized for 5 minutes.
    Mr. Budd. Thank you, Madam Chairwoman.
    And thank you, Mr. Rowe, for being here. Mr. Rowe, your 
testimony mentions something called the success sequence as a 
method of reducing or avoiding poverty. I understand that the 
first element of this sequence is just earning a high school 
degree and that the data certainly supports that when you 
consider that without a high school diploma, those who are 
unbanked, again, the ones without a diploma who are unbanked is 
about 21 percent, but those with a high school diploma who are 
unbanked is only 8.1 percent.
    So, what are the next steps in the success sequence?
    Mr. Rowe. The reason I speak so much about the success 
sequence is, if you are in a low-income community, the 
challenges are real from a whole host of issues, whether it is 
issues of race, issues of poverty, and so the mechanism by 
which you can start getting on the rungs of the ladder of 
success is a really good school, and that is why school choice 
matters.
    But even that is still not enough. After school, you make 
your passage into young adulthood, and work, just so you can 
learn the dignity and discipline of what it means to have to 
get up every single day to earn a living. And then if you want 
to start a family, the evidence shows that marriage before 
children has a significant impact on your likelihood of 
economic success.
    That is not saying we shouldn't also be looking at 
structural barriers to reduce, but we need both elements as 
part of the equation here. And so, I often find in these 
discussions that there is such a focus on the systemic barriers 
that the kids in my schools can start to hear this overwhelming 
message that they don't have the ability to succeed, and the 
reality is that there are millions of people of color 
succeeding in our country today and we need to learn from 
success. What are the strategies that they have deployed? And 
the success sequence is one part of data that suggests that 
young people should at least know that these sets of favors in 
their control can have a significant impact on their access to 
middle class or beyond.
    Mr. Budd. Thank you.
    Let's talk about income disparity for a moment. A lot of 
topics on both sides of the aisle today have been talked about 
and we see that unemployment for Black communities was 
approximately twice that of White communities. So, a gap that 
has been around since 1972, maybe even 1968 when my colleague 
from Iowa was referring to a few minutes ago, and that is when 
the BLS [audio malfunction] to use the government to control 
equality of outcomes or do you think more people would be 
better off if the government stuck to ensuring the quality of 
opportunity? Which one do you think helps us get out of poverty 
more?
    I have heard a lot of bad ideas floating around this 
morning, this early afternoon and I just want to get your take 
on that.
    Mr. Robinson. I think it is really important to lay out 
what the definitions are that we are speaking of. Oftentimes, 
when I hear the word, ``equality,'' I think that people do mean 
equality of outcomes, closing racial disparities, which either 
means that Black kids have to equal Whites or Blacks have to 
equal their percentage representation within the larger 
community. Either way, both of those are placing artificial 
ceilings on the ability for Black kids or kids of any race to 
be successful.
    I think we need to live in an opportunity society where the 
goal is excellence for all, not equal, mediocre outcomes. And 
so, I think that is a fundamental element.
    We just celebrated Hank Aaron about a month ago, his life 
and legacy. The reason we celebrate his life and legacy is that 
he broke Babe Ruth's homerun record. We didn't celebrate him 
because he equaled it. We didn't say, now that you are at 744, 
Hank, stop swinging for the fences; we said to continue to 
demonstrate excellence.
    It is kind of a funny metaphor, but I think we have to have 
a focus on opportunity and excellence for all, not equity of 
equal mediocrity.
    Mr. Budd. Thank you.
    Last question. About 9 percent of the unbanked use peer-to-
peer electronic payment systems and we are seeing that mobile 
payments are really going through the roof; they predict 2 
billion transactions between 2018 and 2023. I am encouraged to 
see that the FDIC has noticed this growth trend, as well as 
recently appointed its first Chief Innovation Officer.
    Do you think these things can help unbanked communities?
    Mr. Rowe. I am all for ideas like that. Let's be out of the 
box.
    Part of the reason we set up college savings accounts for 
our 4-year-olds and match that every single year all the way 
through 12th grade is that it helps to build this idea of 
financial savings. So, there are lots of different ideas to 
encourage saving from the early stages.
    Mr. Budd. Thank you, and I yield back.
    Chairwoman Waters. Thank you.
    The gentleman from Illinois, Mr. Casten, is now recognized 
for 5 minutes.
    Mr. Casten. Thank you, Madam Chairwoman.
    And thank you so much to our witnesses.
    Mr. Robinson, I have two questions for you, and I want to 
say that in advance because they are big, meaty questions, and 
5 minutes is completely unfair. So, if any of this is 
reasonable, let's follow up afterwards, and if you have more to 
say, then let's hear it.
    I wanted to ask you these questions mostly because of your 
expertise, but also because I think we have similar roots. I 
just heard you say you grew up in Long Island. I grew up in 
Westchester County. I haven't lived there since the 1980s, so I 
am a little bit older than you.
    But I went to a school district growing up that was 
exceedingly diverse. The majority of the students were African-
American. The majority of the White students were Jewish. The 
majority of the non-Jewish White students were Italian. As I 
joke, I learned how to breakdance at bar mitzvahs; that was my 
youth growing up.
    Notwithstanding Mr. Huizenga's comments about how good 
schools attract wealthy people who move there, and good real 
estate, my experience is that has the cart before the horse. 
Because my school on any testing metric was not a good school. 
I learned a ton from the diversity that was there, but the 
diversity was the result of decisions made before I ever got 
there--where school district boundaries were drawn, 
exclusionary zoning rules, decisions about busing in the 1960s.
    And as I look through, the teachers were good. This isn't a 
question that sort of testing or choice would have solved the 
problem. We had good teachers. We had good students. We just 
were massively underresourced.
    And I got a gut-punch when I went back to visit my middle 
school to speak to some students there. I hadn't been there 
since 1985. The building looked exactly the same. There has 
been no meaningful infrastructure investments in that building.
    And I tell you that story to get to my first question for 
you. So many of these structural inequities in housing are the 
result of a whole lot of local decisions, and so if you are a 
king and if you have a magic wand and you have one, maybe two 
ideas--and I realize I am about to ask you another question--
what would be a good Federal policy to put pressure on local 
jurisdictions to address some of the underlying causes of these 
inequities?
    Mr. Robinson. I think my other colleagues might have 
something to add here, but I would say that it has to include 
real resources. It has to include evaluation and oversight, and 
then it has to include enforcement.
    To a statement that Mr. Rowe made a little bit earlier 
about Hank Aaron beating the record of Babe Ruth, Hank Aaron 
actually had to be able to be in Major League Baseball in order 
to beat that record. It means nothing if he wasn't actually in 
the league.
    And part of what we are dealing with time and time again is 
that we are not in the league. We are not actually at the 
table. We are not actually allowed to be part of the 
conversation.
    You can't beat a record, you can't win if you are not even 
part of the game.
    Mr. Casten. So, my second question, and I am going to tell 
another little story here. When I moved out to Illinois, I had 
a couple of young kids and I am a middle-class White dude, if 
it is not obvious to you, and so I looked for places with good 
schools, because everybody said that was good for real estate, 
and I also looked for places that had a lot of diversity 
because it shaped so much of who I was as a kid and I wanted 
the same opportunities for my kids.
    I picked a town to live in because it had good schools and 
good diversity, and once I moved there, I realized that the 
town itself is diverse, but the neighborhoods are not. And so, 
I am in the part of town with good schools, but I am not in the 
part of town that has really good diversity.
    And my question for you is, given how important it is for 
people--as I think a number of my colleagues have mentioned, 
you want to live in places where there are good schools. You 
want to live in places where real estate values go up over 
time. But we don't measure the value of going to school with 
all the diversity that I had as a kid and the way that it 
shaped me growing up.
    And I wonder if you have thoughts that are not germane to 
this committee, but how should we evaluate schools that 
recognize the value of that diversity as distinct from--as one 
of my teachers said, who changed districts, he said, ``All of a 
sudden, I was a much better teacher, not because I changed, but 
because the students I was teaching changed.''
    So, how do we better evaluate schools?
    Mr. Robinson. I think we do have to evaluate schools on how 
they are preparing people to enter a world that is increasingly 
diverse, that has demands on our ability to engage with people 
from different backgrounds, and that is part of what success 
sort of looks like.
    I think that there are ways in which we evaluate, the tools 
that we use to evaluate, the ways in which we think about what 
success looks like, we get to choose those, and we get to place 
value on those things. And if we say we value diversity, then 
we should put energy behind that.
    Mr. Casten. Thank you so much.
    And I am out of time. I yield back.
    Thank you so much.
    Chairwoman Waters. Thank you.
    The gentleman from Ohio, Mr. Gonzalez, is now recognized 
for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Madam Chairwoman, for 
holding this hearing, and thank you to the witnesses who have 
joined us today.
    Mr. Rowe, I especially want to thank you for all of the 
work that you have put into your community to change the lives 
of countless young men. Your report, ``Incentivize individual 
agency to achieve upward mobility,'' really resonated with me.
    I am a son of immigrants. My father immigrated here from 
Cuba in 1960. When he married my mother, they had about $12 to 
their name, and they have built a very nice life for themselves 
and their family.
    And when you focus on education, family structure, and 
work, it reminds me exactly of what my childhood was like and 
what my parents instilled in their kids and what I hope to 
instill in my own children.
    And so, my first question would be with respect to the 
education, family structure, and work framework, is this a 
practice that you employ within your schools, and how is that 
message received relative to the other messaging that is coming 
into our minority communities?
    Mr. Rowe. Yes, thank you for the question.
    Part of the reason I run the schools is to Mr. Robinson's 
comment about Hank Aaron. We need our kids to be part of the 
game, and if you are in a school system where literally single-
digit percentages of kids are graduating from high school with 
the ability to do reading and math at a college level, you are 
not in the game.
    And so, it is really important that we stress the 
foundational elements that have typified success in our 
multiracial, multiethnic society. And that is why things like 
the success sequence are so important.
    When I was studying some of the best high schools in the 
country, I went down to New Orleans and visited a collegiate 
school, some ninth graders, exclusively low-income kids, and I 
said, ``We are designing this great school for the South Bronx, 
another high school, and there is information about a series of 
decisions that when people follow them, 97 percent of people 
who are in poverty have not achieved them, would you like to 
know?''
    And they said--these are ninth graders--``Of course, we 
would like to know.'' And I said, ``There are some people who 
think that maybe it is not the right thing to do, and it might 
be patronizing.'' And they looked at me like I had three eyes 
or three heads.
    And so, the whole idea of teaching the series of decisions 
that have a greater likelihood to achieve economic success in 
their own life, to me, should become a central part of every 
curricula in the country. That is not a silver-bullet solution. 
That is alongside a whole set of strategies. But it is not up 
to us to deprive kids of the very information that could 
unleash them to become part of the game.
    Mr. Gonzalez of Ohio. Thank you.
    And I want to shift to the means, to the baby bonds portion 
of your testimony. I think it is a really compelling idea, I 
really do. When you look at how the market has performed since 
2009, it is up 26 percent, 15 percent, 2 percent, 16 percent, 
32 percent, 13 percent. It basically only went down once and 
that far outpaces returns to labor. And so, I think it is a 
compelling issue and I hope that I can find some folks to work 
on it with me to the extent that we can find a compromise 
there.
    I want to ask you specific to homeownership and how you 
think a program like a means-tested baby bonds program would 
improve homeownership for low-income individuals across the 
country and how you would structure that program?
    Mr. Rowe. Sure. I am particularly excited by means-tested 
baby bonds because I actually think it has the ability to 
attract bipartisan support. This type of legislation has been 
talked about in different ways. I know Senator Corey Booker is 
supportive of this and others.
    And back in 2004 or 2003 when this legislation was 
considered, imagine if it had passed. You would now have all 
18-year-olds in this country and successive 18-year-olds who 
would now have, based on today's markets, probably somewhere 
between $50,000 to $70,000 that they could use for tuition, to 
make a down payment on a home, or to start a business. So, that 
is good.
    In addition, it is the type of legislation that is 
inherently future-oriented, so that a young person knows that 
they will actually have a nest egg down the road. That is 
something that a lot of our low-income families don't have, and 
I think means-tested baby bonds could be a pathway there.
    Mr. Gonzalez of Ohio. Thank you.
    And with my remaining 5 seconds, I would like to challenge 
Mr. Casten to a breakdancing competition.
    Thank you, and I yield back.
    [laughter]
    Chairwoman Waters. Thank you very much.
    The gentlewoman from Massachusetts, Ms. Pressley, is now 
recognized for 5 minutes.
    Ms. Pressley. Thank you, Madam Chairwoman.
    And I thank my colleagues and our witnesses today for their 
vigorous endorsement of baby bonds, the American Opportunity 
Act. I am the lead sponsor of that in the House, in partnership 
with Senator Booker. So, I will certainly be following up with 
folks on that.
    Thank you, Madam Chairwoman, for holding this important 
hearing, and, again, thank you to all of our witnesses for 
being here today.
    Despite the passage of the Fair Housing Act over a century 
ago, the National Fair Housing Alliance estimates that 4 
million people in the U.S. still experience discrimination in 
housing each year. A 2019 study in the Greater Boston rental 
housing market that used matched-pair testing, found that Black 
renters experienced discrimination at the hands of real estate 
agents and landlords in 71 percent of cases. This 
discrimination is not accidental. It is not coincidental. It is 
structural.
    One of the bills we are considering today, offered by my 
colleague, Congressman Al Green, would address this by 
increasing funding for Fair Housing Act enforcement and allow 
for coordinated Fair Housing investigations.
    Ms. Bailey, without Federal intervention and increased 
enforcement of Fair Housing protections such as that outlined 
in Mr. Green's bill, can we expect housing discrimination to 
just go away on its own? What are the real dangers to 
generations of Black renters and prospective homeowners if we 
do not correct this and make this investment?
    Ms. Bailey. We have to correct it, as you said, and thank 
you so much for the question. Because this is really about 
those ladders of opportunity that we talked about so much 
during this hearing, those ladders of opportunity that continue 
to miss our communities.
    Unfortunately, our nation's fair lending laws have yet to 
be fully enforced and we often think about them as penalties. 
But here is an opportunity to think about our nation's fair 
lending laws as actually a part of progress.
    The Equal Credit Opportunity Act's special purpose credit 
programs are affirmative things that lenders can do to get at 
some of the underserved markets that we have seen so many of 
them make pledges over the summer about. So, we have these 
tools, and it is really time for lenders to start using these 
tools.
    The special purpose credit program provisions under the 
Equal Credit Opportunity Act actually allows lenders to look at 
the borrowers that they are not extending credit to and to come 
up with programs to actually target those borrowers. As I said 
earlier, we know that there are 3 million mortgage-ready Black 
consumers, and more than 5 million mortgage-ready Latino 
consumers. And I wish I had the data on the mortgage-ready API 
consumers; we have often pushed for that.
    But that is another provision about why the data 
transparency is so important. Data collection and transparency 
tells us what is happening. We can't watch for discrimination 
if we don't know about it.
    The reason why we know so much about what is going on in 
the Asian-American space around discrimination today is because 
people are actually able to report it to Fair Housing agencies.
    And I can't stop on this question without thanking you all 
for the great work that you did to include the Fair Housing 
initiatives, provisions, and the homeownership assistance bill. 
I think that is going to go a long way to make a difference, 
and this committee and its leadership is to really be commended 
and applauded for it.
    Ms. Pressley. Thank you.
    And thank you for lifting up the importance of data. I am a 
firm believer that what gets measured, gets done. And it stops 
us from being complacent, even when those statistics are so 
damning.
    In the district that I represent, the median wealth for a 
Black Boston family is $8, and for a White family, it is 
$247,000, and that has so much to do, if not everything, with 
homeownership or a lack thereof.
    So, I thank you for your answers. Systemic racism must be 
met with intentional, decisive systemic solutions and Congress 
has to move with urgency to expand discrimination protections 
to include our LGBTQ+ neighbors and voucher holders, as we know 
that Black LGBTQ+ and Section 8 tenants face even more 
heightened barriers to secure a home.
    Now, while people of color experienced significant gains in 
homeownership leading up to the 2008 financial crisis, 
predatory lending and subsequent mass foreclosures wiped out 
much of my community's gains. So, Black and Brown households 
lost more wealth and recovered slower than White counterparts. 
And by 2019, we saw the Black homeownership rate dip to its 
lowest levels since the Fair Housing Act outlawed housing 
discrimination in 1968.
    So, Ms. Gonzalez-Brito, how can we make sure that there is 
equity in the wealth-building potential of homeownership?
    Ms. Gonzalez-Brito. We need to absolutely enforce the law 
and we need to make it stronger. We need a strong DOJ, we need 
a strong CFPB, and we need a strong HUD. And we need 
transparency in the data.
    We have recently weakened the data. Ms. Bailey talked about 
data, but we excluded some of the smaller banks that are making 
less loans. So, we want to make sure that all banks are 
included, all online lenders, and that we don't exclude anybody 
from having to report the lending that they are doing.
    Thank you so much for the question.
    Ms. Pressley. Thank you.
    Chairwoman Waters. Thank you very much.
    The gentleman from Indiana, Mr. Hollingsworth, is now 
recognized for 5 minutes.
    Mr. Hollingsworth. Good afternoon. I am really excited 
about this hearing and I appreciate all of our witnesses for 
appearing today and, certainly, the chairwoman and the ranking 
member for their effort to look at this very important issue.
    Ms. Gonzalez-Brito, you mentioned in your testimony, both 
written and oral, the urgent need for postal banking or 
government-owned banks. Tell me a little bit about how you 
envision that working?
    Ms. Gonzalez-Brito. At this point, we know that the big 
banks are not serving our communities. I was looking at some 
data the other day. Mr. Rowe talked about being in the game, 
and that education is part of being in the game.
    But when I looked at the data, there are 14 banks in Black-
majority neighborhoods and 27 in White-majority neighborhoods. 
So, how can we be in the game when the banks are not even in 
our communities?
    Postal banking and public banks--
    Mr. Hollingsworth. Can you clarify that? Can you be more 
clear in stating that government-owned banks elsewhere are 
doing a better job of reaching a broader range of communities? 
Or are you just comparing the status quo in the United States?
    Ms. Gonzalez-Brito. What I am saying is that the status quo 
is not working, that big banks don't serve our communities, and 
that public banks--
    Mr. Hollingsworth. Reclaiming my time. To be clear, are you 
then claiming that the postal banking system as the solution is 
going to be better?
    What evidence do you have anywhere around the world that 
the postal banking system or a government-owned banking system 
would be better than the existing system?
    Ms. Gonzalez-Brito. I heard a lot of you talk about 
innovation and that seemed to be the key word today. As we 
talked about the need for racial equity to be that--everybody 
said racism exists and innovation was the magic word today.
    So if we are going to talk about innovation in terms of how 
we are going to close these disparities, then public banking is 
one of the ways that we can do that. There is a post office in 
my neighborhood.
    Mr. Hollingsworth. Reclaiming my time.
    Ms. Gonzalez-Brito. I am sure there is a post office in 
your neighborhood, and so--
    Mr. Hollingsworth. Reclaiming my time.
    Ms. Gonzalez-Brito. --and we know that--yes?
    Mr. Hollingsworth. Ms. Gonzalez-Brito, reclaiming my time.
    Two things are important to come out of that. Number one, 
evidence has piled up over decades showing that financial 
systems where government-owned banks exist have slower levels 
of financial innovation than their peer countries that don't 
have government banking systems.
    Ms. Gonzalez-Brito. I would disagree with that. If we look 
at North Dakota, they rolled out more PPP loans than any other 
State per worker than any other State in the United States.
    Mr. Hollingsworth. Reclaiming my time.
    Ms. Gonzalez-Brito, rolling out PPP is not a definition of 
innovation, number one. Number two, the North Dakota example 
has been used over and over again. They have shown--
    Ms. Gonzalez-Brito. What is the definition of survival, if 
it is not businesses?
    Mr. Hollingsworth. Reclaiming my time. They have shown over 
and over again that the State of North Dakota earns a lower 
rate of return on its deposits, so its taxpayers are 
essentially subsidizing the banking system, which 
predominantly, by the way, lends to fossil fuel companies, 
which I am sure is a problem, you would say.
    So just for clarity on this point, you say that you don't 
agree with that. Abundant economic research continues to show 
that government-owned banking systems deliver far less 
financial innovation and take far more risks and provide a 
lower rate of return for those who participate in the system.
    Ms. Gonzalez-Brito. Representative Hollingsworth, can I ask 
you for the evidence that our banks are actually serving Black, 
Indigenous, and people of color currently?
    Mr. Hollingsworth. That is a great question. I would love 
to work with you to find a solution to that problem. I have 
come at that over and over.
    Ms. Gonzalez-Brito. The evidence is that they don't.
    Mr. Hollingsworth. But the answer cannot be a cure for the 
disease that is worse than the disease itself. You have to look 
at--
    Ms. Gonzalez-Brito. I would say that the disease right now 
is actually leading to people losing their jobs, losing their 
livelihood, and because of the economic impacts, Black and 
Latinos and Asian Americans are dying at a higher rate. So, the 
disease is actually killing people at this moment during the 
pandemic.
    So, from one who is losing my neighbors, let us not talk 
about what it is that is at risk right now.
    Mr. Hollingsworth. Reclaiming my time.
    Again, you fail to show that the proposed solution is any 
better than the current status quo. You fail to show anywhere 
demonstrably around the world where a postal banking system or 
a government-owned banking system has improved--
    Ms. Gonzalez-Brito. Mr. Hollingsworth, there are public 
banking advocates who would love to sit down with you and talk 
to you about Germany and places around the world where it does 
work, and we are willing to try this because, at this point, 
our communities are suffering.
    And I am sorry if you don't see that. Maybe I can take you 
to some of the areas where I work in East Oakland and East Los 
Angeles and you can see--
    Mr. Hollingsworth. Ms. Gonzalez-Brito, reclaiming my time.
    As I said, I am deeply sympathetic to the problem, but we 
can't come up with solutions that: (A) don't work; and (B) 
don't solve the problem.
    Ms. Gonzalez-Brito. But you are not sympathetic enough, 
apparently.
    Chairwoman Waters. Thank you. The gentleman yields back.
    The gentleman from New York, Mr. Torres, is now recognized 
for 5 minutes.
    Mr. Torres. Thank you, Madam Chairwoman. I have a question 
about housing.
    Our society has determined that education is so fundamental 
that it must be provided to every child, and even though none 
of us can survive without housing, our society has not yet 
determined that housing is so fundamental that every child must 
have a home.
    In New York City, there are 1 million students in the 
public school system, and more than one-tenth of those 
students, more than 100,000 of those students, have no stable 
permanent housing.
    Now, the subject of our hearing is equity, and a common 
refrain among Republicans is that what we need is not equity, 
but equality. What we need is not equality of outcome but 
equality of opportunity, and I have a question about equality 
of opportunity in the housing context.
    If you are a child without a home, do you actually have 
equal opportunity? If you are a child lurching from one shelter 
to the next, lurching from one school to the next in conditions 
of extreme housing instability, do you have anything resembling 
equality of opportunity?
    And that question is directed to Mr. Robinson.
    Mr. Robinson. Thank you for the question.
    No, sir, you don't, and I think that, so often, where we 
start out determines where we end up.
    Like I said in my opening statement, inequality is not 
unfortunate like a car accident. It is manufactured through a 
whole set of choices our government makes, and we can make 
choices that are better for our children if we care enough to 
actually remove those barriers and deal with the rules.
    Mr. Torres. You used the key word, ``choice,'' because I 
think much is said about individual responsibility and choice, 
and I certainly support individual responsibility.
    Mr. Robinson, have you ever met a child who chose to be 
poor?
    Mr. Robinson. No, sir, I have not.
    Mr. Torres. In public housing, we have a lead poisoning 
crisis. Have you ever met a child who chose to be poisoned by 
lead?
    Mr. Robinson. No, sir, I have not.
    Mr. Torres. And you are aware that lead poisoning has 
lifelong consequences through no fault of the child?
    Mr. Robinson. Absolutely.
    Mr. Torres. My greatest passion in life is housing, and for 
me, the simple solution to homelessness is affordable housing. 
More affordable housing units would mean less homelessness. 
More housing vouchers would mean less homelessness.
    We, as the wealthiest country in the world, have the 
resources to house every child in America just like we have to 
educate every child in America. What is lacking is the 
political will.
    And I am curious to know your thoughts on the notion of 
housing as a human right, housing as a fundamental public good, 
and housing as infrastructure.
    Mr. Robinson. It is all of those things, sir, and it is 
also aspirational. It is about families being able to have 
self-determination about where they get to live, about where 
they get to go.
    I think about my grandparents, on both sides. Both of my 
grandfathers were in the Local 66 Union, which allowed them to 
buy a home. That home was passed down to our family. It created 
opportunities.
    I sit here as the first person in my family to have a 
college education because my family was able to leverage their 
mortgage to be able to pay for college.
    That is the story of so many, but because of systemic 
racism, it is not the story for enough. And that is actually 
what we have to deal with here and that is the role of public 
policy.
    Public policy does not tell kids that if they just get 
married, racism will go away. Public policy is removing the 
actual barriers of racism in their communities that have far 
too often held people back.
    Mr. Torres. And I have a final question about the Community 
Reinvestment Act. According to the memo from the Financial 
Services Committee, 98 percent of banks pass the CRA exam. Now, 
I have never been in a classroom where 98 percent of students 
passed an exam.
    And so, for me, there are two explanations. Either nearly 
every bank in America is exceptional, or there is something 
wrong with the test.
    And I am wondering if any of you, particularly Ms. Bailey, 
feels that there should be CRA reform and, if so, what specific 
reforms should be included?
    Ms. Bailey. Indeed, and as we discussed earlier, we need to 
have a race justice focus in the Community Reinvestment Act.
    For some weird reason, we have come to think of the CRA as 
something that shouldn't be explicit about race, but its 
legislative history and language definitely speaks to ensuring 
credit access in communities of color.
    So, we need to do that. We also need to see a broad effort 
across the agencies--the FDIC, the Federal Reserve, and the 
OCC--working together to coordinate the CRA to make sure 
resources get into underserved communities and live up to the 
law's purpose and focus on localized impact of the CRA with 
this critical [inaudible.]
    Mr. Torres. Thank you.
    Chairwoman Waters. Thank you. The gentleman's time has 
expired.
    The gentleman from Wisconsin, Mr. Steil, is now recognized 
for 5 minutes.
    Mr. Steil. Thank you, Madam Chairwoman. I appreciate your 
concern on this topic and the ranking member as well. It has 
been a robust discussion today.
    As some of you may know, I served on the University of 
Wisconsin Board of Regents prior to coming to Congress. 
Education has, I think, a really profound opportunity to make 
sure that everyone in our country has the opportunity for 
advancement, but in particular advancement of Blacks and 
Hispanics and lower-income children.
    I would love to just go down through our list of panelists. 
On a scale of one to 10, 10 meaning education is really 
important for the opportunity for children in our country, in 
particular Blacks and Hispanics, and one, meaning not so 
important. And I will just go in the order of the Majority 
committee list here.
    Ms. Gonzalez-Brito, scale of one to 10, the importance of 
education?
    Ms. Gonzalez-Brito. I would say it is a 10.
    Mr. Steil. Ten. Perfect.
    Ms. Gonzalez-Brito. Public education, well-funded.
    Mr. Steil. No. No. I only have so much time. You have a 
robust Twitter feed. I know you will have the opportunity to 
comment there when we are done.
    Mr. Robinson, scale of one to 10?
    Mr. Robinson. It is a 10, sir.
    Mr. Steil. And Ms. Bailey?
    Ms. Bailey. It is a 10, with the notion that housing 
determines the quality of opportunities related to education.
    Mr. Steil. No. No. I know there are a lot of topics here, 
and I apologize that I only get 5 minutes. I wish I had more.
    Mr. Yang, scale of one to 10?
    Mr. Yang. Food, safety, shelter goes first, and then after 
that, education.
    Mr. Steil. And Mr. Rowe?
    Mr. Rowe. Ten.
    Mr. Steil. Ten. So what we heard, more or less, was 10s 
across-the-board. I would agree with you. We are at a point in 
time where we are holding this hearing when many of our schools 
across the country are still closed, and I have real concerns 
about that.
    This is true, in particular, in the Los Angeles Unified 
School District, one of our largest school districts in the 
country, where 80 percent of the students, from the data I have 
in front of me, live in poverty, and 82 percent are Black and 
Hispanic.
    Yet, the schools are overwhelmingly closed for in-person 
learning. The vast majority of their students still face shut-
outs from their classroom and they have been told to try to 
learn online at home.
    And as we know, there are a lot of struggles in particular 
for Black and Hispanic families and low-income families. This 
is difficult.
    And it shouldn't be a surprise that school closures have 
been found to disproportionately hurt kids in minority and low-
income neighborhoods, like many of the students at L.A. 
Unified, and I worry about the lasting impact and effect that 
this is going to have on our students.
    There was a McKinsey study which projected that school 
closures can increase the existing achievement gap by 10 to 20 
percent, and I seek unanimous consent to submit this McKinsey 
study for the record.
    Chairwoman Waters. Without objection, it is so ordered.
    Mr. Steil. Thank you very much, Madam Chairwoman.
    Chairwoman Waters. You are welcome.
    Mr. Steil. The same article estimates that school closures 
increase the likelihood of students dropping out by up to 90 
percent, and as many of my colleagues have already mentioned, 
there is a strong relationship between low educational 
achievement and being unbanked.
    According to the FDIC, more than a fifth of those without a 
high school diploma are unbanked, compared to only 8.1 percent 
of high school graduates, and if we are concerned about unequal 
outcome for Black and Hispanic and lower-income Americans, as I 
am, I think we really need to focus on education, and step one 
should be about reopening our schools. The science on this is 
becoming more clear that we can safely reopen our schools.
    An article in the Journal of the American Medical 
Association said that there has been little evidence that 
schools have contributed meaningfully to the increased 
community transmission.
    The same article noted that the preponderance of available 
evidence has been reassuring. The New England Journal of 
Medicine said safely reopening schools full time for, in 
particular, elementary school children, should be a national 
top priority.
    I think we need to get our kids back in the classroom, and 
I note that we are moments away from voting on a giant spending 
bill, a $1.9 trillion bill, where out of the funds going to 
education only 5 percent are projected to be spent this year.
    Zero percent of those funds are tied to reopening our 
schools, and as we dive into what I think really is an 
incredibly important topic, I think it is disappointing that we 
are not spending more time focusing in on what is before us in 
the short term that is achievable as a policy opportunity to 
make sure that we are opening schools, in particular, in our 
most challenged neighborhoods like Los Angeles.
    I wish I had more time, but I don't. I appreciate 
everybody's time here and, Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you very much.
    The gentlewoman from North Carolina, Ms. Adams, is now 
recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chairwoman, and to all of our 
witnesses, thank you for being here. But before I ask my 
prepared questions, I just want to make a quick comment as a 
former educator for 40 years, and as a member of the Education 
and Labor Committee, we have had a lot of talk today about the 
role an education plays in driving up upward economic mobility.
    I believe that education does play an essential role. 
However, I think we need to be careful about how we discuss the 
issue. Yes, personal responsibility and hard work are 
important.
    But we can't ignore the structural and systemic barriers 
that exist. This committee cannot legislate personal 
responsibility nor can this committee work to dismantle 
barriers to create opportunities for all.
    School choice is not a panacea for addressing racial equity 
and empowering low-income communities. Our public schools are 
the bedrock of our democracy and they equitably serve all 
students.
    So we should be strengthening and fully robustly funding 
our public schools that serve all students. We should be proper 
stewards of taxpayer funds, and that means we have to ensure 
that our public dollars are producing excellence for all 
students and we should make sure that our public schools which 
serve all students are the best option for all students.
    And we do not have evidence that unaccountable charter 
schools produce better outcomes for students. I just wanted to 
add that, Madam Chairwoman.
    In my district of Charlotte and Mecklenburg, a local news 
outlet analyzed data from 2018 to 2019 in terms of home 
mortgage disclosures and found disturbing disparities in 
mortgage lending. Black individuals were being denied 2 to 3 
times more than White applicants.
    And, Madam Chairwoman, I want to submit an article 
entitled, ``Largest Lenders Deny Home Loans for Black 
Applicants up to Three Times More Often Than Whites,'' for the 
record.
    Mr. San Nicolas. [presiding]. Without objection, it is so 
ordered.
    Ms. Adams. Thank you.
    And so, here is my question. Can each of you share or 
recommend no more than one or two ways that Congress should act 
immediately to help address our persistent issues in lending 
discrimination and what are some specific tools, processes, and 
policies or oversight that need to be implemented to truly 
level the playing field and empower borrowers of color and 
ensure fairness and rule out discrimination in the lending 
process?
    That is to each of you.
    Ms. Bailey. I would start by saying the use of special 
purpose credit programs. I know I keep going back to them but 
they are a tool that really can ignite our economy.
    They allow lenders to really look at who it is they are 
serving and to figure out who it is that they are underserving, 
and then to create special programs to target those underserved 
communities.
    Again, the reports show that addressing discrimination, 
including in the housing market, will add trillions of dollars 
to our economy, thousands of jobs, and billions of dollars in 
local tax revenues, which actually strengthens the state of 
education in communities across the nation.
    Ms. Adams. Great. Another comment? Anyone else?
    Ms. Gonzalez-Brito. If I can, I would require PPP loan data 
to collect race and ethnicity and gender. Right now, I think it 
is optional, and it just doesn't allow us to evaluate the 
program and where we are seeing potential discrimination, and 
on that point, 1071 data, to move that along quicker with the 
CFPB to allow for that collection across-the-board for small 
business loans and to make that public.
    Thank you.
    Ms. Adams. Thank you.
    Mr. Robinson. I would add accountability and transparency 
of data across-the-board, and then real accountability in terms 
of the rules when folks violate it, when institutions violate 
it. Right now, they can write it off.
    And then, we should forgive student debt. Forgiving student 
debt would be a force multiplier for Black, Latinx, and people 
of color in this country. It would be a racial justice win.
    Ms. Adams. Great. Thank you.
    Mr. Rowe?
    Mr. Rowe. I would support, as I have mentioned before, 
means-tested baby bonds immediately because millions of low-
income parents--the most important things that they are 
concerned about are how are their children going to have 
opportunities that they may not have had for themselves, and 
knowing that if I have a child, over time they will be able to 
have, again, depending on the market, $50,000 to $70,000 of 
income that could be used for education, tuition, purchasing a 
home, or starting a business. Those are the kinds of things 
that fundamentally change the dynamic for low-income families 
today.
    Mr. Yang. Very briefly, to put a finer point of data, to 
ensure that data is disaggregated so it includes the Asian-
American community and the different components of that.
    Ms. Adams. Great. Thank you. I am out of time.
    Mr. Chairman, I yield back.
    Mr. San Nicolas. Thank you, Ms. Adams.
    The gentleman from Tennessee, Mr. Rose, is recognized for 5 
minutes.
    Mr. Rose. Thank you. Thank you, Chairwoman Waters and 
Ranking Member McHenry. I also want to thank our witnesses for 
taking time to be with us today.
    Throughout the pandemic, we faced not only a coin shortage 
but businesses were refusing, increasingly, to accept cash as a 
form of payment at an alarming rate, leaving many consumers 
unable to purchase necessities.
    Cashless policies disproportionately harm seniors, 
minorities, immigrants, low-income populations, and working-
class communities.
    I believe that all consumers should have the freedom to 
choose to pay with cash at grocery stores, restaurants, 
businesses, or anywhere they choose.
    Last Congress, I, along with several other members of this 
committee, co-sponsored the Payment Choice Act, introduced by 
Representative Payne, which would require merchants to accept 
cash. I believe this legislation is critical because parts of 
the country in both rural and urban areas are more dependent on 
a cash economy.
    Mr. Rowe, can you discuss the importance of access to a 
cash economy to the underbanked communities across the country?
    Mr. Rowe. Yes. That is an example of intervention that 
penalizes poverty. I think the idea that you would restrict a 
business, would restrict someone from the ability to actually 
engage in commerce, to desire to pay for the product, because 
they have to pay in cash, is a policy that I would not support. 
That penalizes the poor in a way that pushes them back even 
more.
    Mr. Rose. Thank you.
    In Tennessee's 6th Congressional District, which I 
represent, 12.9 percent of total occupied housing units are 
manufactured homes. Manufactured housing is the most affordable 
home ownership option available nationwide for minorities, 
underserved, and low-income borrowers.
    According to U.S. Census data, 90 percent of new homes 
under $75,000 are manufactured housing. Congress has passed 
legislation directing HUD to require localities to include 
manufactured housing as part of their comprehensive housing 
affordability strategies and community development plans.
    This legislation was also intended to increase the use of 
Community Development Block Grants and HUD HOME grant funds for 
manufactured housing and to ensure that manufactured housing is 
included in federally funded State and local affordable housing 
initiatives.
    Ms. Gonzalez-Brito, do you agree that manufactured housing 
should be considered as communities develop strategies to 
address their affordable housing challenges?
    Ms. Gonzalez-Brito. Yes, thank you for that question. I do 
agree. I think it is an important part of fair housing and 
serves often rural communities, and so we should ensure that 
there aren't any local barriers to producing manufactured 
housing, and I hope that this is something that can continue to 
be supported by the committee.
    Mr. Rose. Thank you.
    For those who are unbanked, it can be difficult if not 
impossible to obtain a credit score, which can be used in 
employment decisions and, of course, to get a loan.
    Mr. Rowe, will including alternative data sources such as 
rent, utility, and cell phone payments into credit scoring 
models increase the predictive value of underwriting for low-
income and minority borrowers?
    Mr. Rowe. I am not an expert on the issue, but I think that 
it would. And, again, let me just reiterate that we, obviously, 
need policies that support people who are unbanked.
    But if one of the primary causal reasons that they are 
unbanked is that they are not graduating from high school or 
they are undereducated, let us stop focusing solely on the 
symptoms, which we need to, but spend more time being 
innovative.
    How do we get more low-income communities to graduating not 
just high school but having that post-secondary success as 
well?
    Ms. Bailey. If I may jump in on that answer, I just wanted 
to stress one point. We know that predatory products actually 
push people outside of the banking center and the banking 
system, and we need to make sure that the innovation that we 
are talking about is not the kind that really adds on excessive 
fees and has dangerous practices associated with it.
    We actually need sustainable, responsible, innovative 
products that actually adhere to our fair lending laws but also 
to our State and our local consumer protection provisions that 
are critical to helping communities keep their hard-earned 
savings and not being denuded of their wealth from abusive 
practices.
    Mr. Rose. Thank you.
    I see that my time has expired. I yield back.
    Mr. San Nicolas. The gentlelady from Michigan, Ms. Tlaib, 
is recognized for 5 minutes.
    Ms. Tlaib. Thank you so much. Thank you all so much for 
being here, and I think many of you have been talking about 
investing in people and having government be about people and I 
think that is critically important in this real conversation,
    And I am looking forward to helping fund opening up schools 
safely. Some of my colleagues who are being genuine about 
wanting to open up our schools will vote for this package on 
the House Floor right now.
    I want all of you to know that in 2019, the homeownership 
rate of Black Americans dropped to its lowest levels since the 
Fair Housing law was enacted in 1968. Just remember that for 
one moment.
    Not only that, firsthand in Michigan, we saw more Black 
homeownership drop--we lost more Black homeownership than any 
other State in the country over the last 2 decades.
    And so, when I see programs or policies like the Community 
Reinvestment Act, which was enacted in 1977 with the intent of 
ending redlining because the private sector continued to 
discriminate, it is clear, as we see these numbers and these 
rates, again, among many of our communities of color 
throughout, that a race-neutral CRA isn't fully fulfilling its 
promise.
    When commercial banks, or as I call them, for-profit banks, 
shut out Black and Brown people from lending, they are not just 
closing a door on homeownership. They are actually closing the 
door on savings for our childrens' education, the opportunity 
to build a business, and the ability to truly be able to thrive 
with human dignity in our country.
    And so, Ms. Gonzalez-Brito, I want to thank you so much for 
your courage in standing up and talking about the importance of 
public banking, and you testified about the importance of that.
    And my question to you is, in tandem to really important 
CRA reforms, how would you see these proposals helping 
communities like mine progress towards homeownership and 
building wealth?
    [No response.]
    Ms. Tlaib. This is for Ms. Gonzalez-Brito. Is she still 
with us?
    Ms. Gonzalez-Brito. Yes, I am. Can you hear me?
    Ms. Tlaib. Yes.
    Mr. San Nicolas. We can hear you now.
    Ms. Gonzalez-Brito. Okay.
    Ms. Tlaib. You talked really sincerely about the importance 
of public banking and I wanted to talk about, even beyond 
homeownership, how can that really, truly build wealth, and 
really give you some time to talk about that only.
    Ms. Gonzalez-Brito. Yes. I think what we are talking about 
here, and I appreciate the question--thank you so much--is the 
ability to do consumer banking, the ability to invest in 
communities in ways that banks have not done.
    We are talking about banks that are not in our communities 
and that have shown no interest in them. We had to sue a bank 
for redlining in Los Angeles. They literally had a donut around 
communities of color. So, they had branches all around except 
in our communities, and so that meant that they weren't 
investing in our communities. They weren't doing affordable 
housing in our communities. We had no opportunity to actually 
be able to bank in those communities because we didn't see 
them.
    So, if you can do public banking through a local 
municipality, through the State, have a State public bank, then 
you have the government invested in the communities that they 
actually are responsible for instead of a commercial bank that 
is only there for profit and doesn't see us as profitable.
    I sat at the table with a banker once who said to me, 
``Well, we can't make money off of Latinos.'' So, that is the 
situation that we are faced with and that public banking and a 
government that actually is responsible and invested in us can 
begin to solve.
    Ms. Tlaib. I have introduced the Restoring Communities Left 
Behind Act, and I would ask everybody on the panel to really 
take a look at it.
    It is about government taking the role of really trying to 
reverse decades of discriminatory policy and turn homeownership 
from a possibility to an actual reality for so many of our 
communities.
    It is $5 billion, and Congresswoman Marcy Kaptur and I have 
been working on this, particularly because we know that the 
private sector is just not going to move in that direction. We 
continue to see it in our communities and in the surrounding 
neighborhoods.
    And so, Ms. Gonzalez-Brito, how will rehabbing--part of 
this bill is also sustaining our current housing and that has 
been a huge issue, as you know, in our communities--existing 
housing and reinvesting in our communities empower the people 
that myself and many others on this committee represent who 
traditionally face discrimination in the housing market?
    Ms. Gonzalez-Brito. First, in California, for instance--oh, 
sorry.
    Ms. Tlaib. Mr. Chairman, if she can finish answering the 
question, I really would appreciate that.
    Ms. Gonzalez-Brito. What we are seeing in California is a 
real disinvestment in housing and having to compete with 
corporations, Wall Street Corporations, for housing.
    So to have investment from a public bank to be able to 
rehab destabilized housing, to be able to invest in affordable 
housing that we can actually afford to live in changes 
communities and allows us to compete with corporations that 
have been destabilizing and pushing us out for quite some time 
now.
    Ms. Tlaib. Thank you so much.
    Mr. San Nicolas. The gentlelady from Pennsylvania, Ms. 
Dean, is recognized for 5 minutes.
    Ms. Dean. Thank you to both the Chair and the Vice Chair, 
and I thank our witnesses for being here.
    We all say that diversity is our strength. So I am glad we 
are talking about the need to recognize that strength and also 
promote it.
    We have to work to ensure that minority communities are 
corrected from the injustices they have suffered in the 
financial system, in the housing market, et cetera.
    Mr. Robinson, I was really interested in what you wrote and 
what you said in your testimony. You pointed directly to 
discrimination that Black and Latinx business owners faced when 
trying to access PPP loans and other COVID relief.
    You said that early on, banks, in some cases, moved favored 
borrowers to the front of the line, disadvantaging small 
businesses of color.
    Can you be a little more specific on that? And then, I am 
going to ask you a follow-up to that question.
    Mr. Robinson. So a little more specific about that is that 
we heard and we saw in the data sort of a widespread sort of 
ways in which even when Black and Latinx businesses had 
relationships with big banks where the money was moved through, 
they were sort of deprioritized, maybe for businesses that had 
longer relationships, or maybe for businesses that had other 
types of relationships with that bank.
    Essentially, tax dollars flowed into communities but they 
were not distributed in a way that had any equity baked in. So 
in essence, this was not about giving Black and Latinx 
businesses a leg up. What essentially happened was that White 
businesses were being subsidized by Black and Latino 
communities and Black and Latino communities were being left 
out.
    That was the result, and it all happened because of the 
design of a piece of legislation that moved money through 
institutions which, from their very beginning, have excluded 
us.
    I said earlier that it is not that Blacks and Latinos are 
less likely to get a loan from a bank. It is that banks are 
less likely to give loans to Latinos and Black folks, and as a 
result, we end up with the results we see.
    Ms. Dean. Thank you for that, and I would ask if you have 
specific data on that? I know that this committee, as well as 
the Oversight Committee, would be very interested in that.
    I also have spoken with lenders who were very mindful of 
that, so I am certain it wasn't all lenders. But I see what you 
are saying is built into the system.
    Mr. Robinson. I included in my testimony, in the appendix, 
some surveys and polling we did that had some statistical 
significant data really highlighting the problems for Black and 
Latinx businesses in getting loans.
    Ms. Dean. Thank you for that, and I wanted to point out 
legislation that I introduced that I think would get at that as 
well as other problems within the PPP program.
    I introduced and will reintroduce the Restore America's 
Main Street Act to provide unrestricted direct cash relief to 
the smallest of businesses through a small business rebate 
check, so, not through an application process and also not 
tethered to payroll, direct liquidity to the smallest of 
borrowers.
    I am wondering if you have had a chance to take a look at 
that legislation? Others have introduced similar pieces. There 
is another measure in the Senate. Mine is called Restore 
America's Main Street, with direct cash liquidity.
    Have you had a chance to take a look at that, and wouldn't 
that kind of a measure, direct cash check, alleviate and make 
neutral the minority-owned businesses?
    Mr. Robinson. I haven't had a chance to look at the 
specific legislation. I look forward to it. I do know that 
getting to the smallest of businesses will be very important in 
dealing with the equity issues, especially given the rates of 
employee relationships that Black and Latinx women-owned 
businesses, which are some of the fastest growing businesses, 
in our country, sort of how they are situated.
    Ms. Dean. Terrific. Thank you.
    And, Ms. Bailey, if I could go to you. I thank you, too, 
for your testimony. I was taking a look at the numbers in 
Pennsylvania--I am from Pennsylvania.
    According to Black Knight's monthly mortgage monitor, as of 
January of this year, 71,000 homeowners in Pennsylvania were 
90-plus days delinquent compared to one year ago, 19,000 
homeowners in Pennsylvania who were 90-plus days delinquent at 
the beginning--just prior to the pandemic.
    I am wondering, with the current forbearance on 
foreclosures, what do you foresee in terms of--I am worried 
about a very large foreclosure rate. I know my colleague, Ms. 
Pressley, was talking and recalling the recession of 2008 and 
what that did to homeownership among people of color.
    So can you talk a little bit about what you see as a 
possibility of foreclosures coming, sadly, in our future?
    Ms. Bailey. Absolutely, and I have to share that the 
Homeownership Assistance Fund that this committee just 
supported for passage in the American Rescue Plan is going to 
go a long way. That $10 billion has been targeted to help 
address those exact types of potential foreclosures that may 
happen as a result of low-wage workers being pushed outside of 
the marketplace.
    Ms. Dean. Thank you very much. I see my time has expired. 
Thank you, Mr. Chairman.
    Mr. San Nicolas. The gentlelady from New York, Ms. Ocasio-
Cortez, is recognized for 5 minutes.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman.
    Before I kind of get into my line of questioning, we have 
heard a little bit, a couple of myths, I think, advanced over 
the course of this hearing and I wanted to dispense with them 
very quickly.
    First is this idea that education is the solution to a 
wealth gap, and while I appreciate the emphasis on education 
and it is something that is incredibly important, we know for a 
fact that is not the solution to our wealth gap here in the 
United States.
    In fact, there is a Demos study which shows that White high 
school dropouts in the United States are wealthier, on average, 
than Black and Latino college graduates, and if any of my 
colleagues want to call any of that into question, I am happy 
to submit that study for the record.
    But that is because what wealth in America is largely 
predicated on is generational wealth--housing, New Deal 
investments that created redlining policies that prevented 
Black, Native, and Latino Americans from buying into this 
American Dream that was created, in part, with public policy, 
and that injustice translated into a wealth gap that is 
inherited generation by generation.
    And so, we cannot talk about education as a cure to Jim 
Crow when it is not Black, Brown, or Native people who need to 
be educated out of a wealth gap. Policy created this. Policy 
needs to solve it.
    That brings me to a second point where, Ms. Gonzalez-Brito, 
earlier in this hearing you were kind of jumped on, on the 
issue of postal banking, and there was a Member who asked you 
where has this been successful.
    I have an example. How about the United States? Isn't that 
right, Ms. Gonzalez-Brito? The United States had a successful 
postal banking system for about 50 years, didn't we? In fact, 
we had it until about 1966, correct?
    Ms. Gonzalez-Brito. Yes, that is correct.
    Ms. Ocasio-Cortez. And it was designed to help lower-income 
people, small savings accounts, not people with tens of 
thousands of dollars at their disposal, but just a place to 
park your money where you are not going to get knocked with a 
$25 fee every month, right?
    Ms. Gonzalez-Brito. That is right.
    Ms. Ocasio-Cortez. In fact, it was so successful that the 
United States postal banking system, a public option in our 
postal banking system, took up about 10 percent of the consumer 
banking market at its peak.
    It was popular among the American people of all parties, 
isn't that right, Ms. Gonzalez-Brito?
    Ms. Gonzalez-Brito. That is right, Congresswoman.
    Ms. Ocasio-Cortez. I am happy to submit some of that for 
the record as well, if my colleagues need a little bit of 
studying of our history--our rich and beautiful history of 
postal banking in the United States.
    But I will move on to my questions. I wanted to talk a 
little bit about how private equity groups are gobbling up our 
housing supply in the United States, so we can build as much as 
we want but when they are gobbled up by the 1 percent, we still 
can't afford rent. People still can't buy their home.
    So I was wondering if you could just explain a little bit 
how in the post-recession, people got wiped out in 
foreclosures, and then these corporate groups like, for 
example, Invitation Homes, which happens to be the country's 
largest rental homeowner, scooped up this supply in Black and 
Latino neighborhoods to translate that wealth gap inherited 
from redlining and translating it into our market today.
    I am sorry you only have a minute, but that is what we 
have.
    Ms. Gonzalez-Brito. Is that for me, Congresswoman?
    Ms. Ocasio-Cortez. Yes, it is.
    Ms. Gonzalez-Brito. Yes. Thank you for that question. This 
is the corporate landlords that we are talking about. This is 
Wall Street that has gobbled up our homes and now owns our 
communities and doesn't allow first-time homebuyers to come in.
    And our good friends at ACR have put together a great 
report on this and have put together the amount of money that 
these companies, these corporations, are now amassing to do the 
same thing during this pandemic.
    The numbers look like this: Invitation Homes has put 
together a joint venture. They have amassed more than $1 
billion for a house hunt that they are now going to be 
embarking on and they have bought up more than $200 million of 
homes already per quarter since the pandemic started.
    So they are on it, and those real estate investment funds 
have amassed over $142 billion to spend on pandemic-distressed 
real estate. Those are homes, those are small businesses that 
are family-owned and that are going to be gone unless we do 
something about it.
    And what we can do is ensure that banks--if something is 
foreclosed upon, to turn it over to a community land trust. 
Turn it over to affordable housing developers so that we keep 
those properties in community-owned hands.
    Chairwoman Waters. Thank you.
    Ms. Ocasio-Cortez. Thank you.
    Chairwoman Waters. The gentlelady's time has expired.
    The gentleman from Illinois, Mr. Garcia, is now recognized 
for 5 minutes.
    Mr. Garcia of Illinois. Thank you, Madam Chairwoman, and 
Ranking Member McHenry, for convening this hearing.
    Financial equity is, of course, an urgent issue for 
communities like mine in Chicago. I represent a working-class 
predominantly Latino district.
    My parents moved to the neighborhood over 50 years ago. I 
am still there in the barrio. This pandemic has been, of 
course, very hard on my community. But things weren't easy 
before.
    The fact is that my constituents need the same things that 
every neighborhood needs. They want good jobs with a living 
wage. They need a safe home they can afford, and they need 
affordable housing with good access to public transportation.
    What they don't need is a shady loan with sky-high interest 
rates they can't pay back, and they certainly don't need a 
brand new luxury condo complex next to the train that they 
could never afford.
    So when we talk about access, I want to be specific about 
what it is we are trying to access.
    Ms. Bailey, the Illinois General Assembly passed a bill 
earlier this year to put a 36 percent interest cap on loans in 
my State. If the bill becomes law, my State will be the 18th 
State to do that.
    Last Congress, I introduced the Veterans and Consumers Fair 
Credit Act to create a 36 percent interest cap nationwide. I 
plan to reintroduce that bill soon.
    Ms. Bailey, do you think that working-class communities 
like mine benefit from laws that prevent high-interest loans?
    Ms. Bailey. Yes, they actually do, and communities really 
need to be protected from what we are calling predatory 
inclusion, where people are pulled into the system to get 
abusive loans that actually rob them of their hard-earned 
savings and wealth.
    So yes, and absolutely.
    Mr. Garcia of Illinois. Great. Thank you so much.
    Ms. Gonzalez-Brito, in your testimony, you talked about how 
lenders aggressively pursue clients who have trouble paying 
their loans, even suing them in the middle of the pandemic.
    What do you hope to see from the Biden Administration 
regulators to protect clients, and what can Congress do to fix 
it?
    Ms. Gonzalez-Brito. Thank you so much for this question, 
Representative Garcia.
    We are seeing, and especially we need to think about when 
we talk about providing credit and capital in our communities, 
that it is good capital, and that we are not seeing predatory 
practices, both on the loan itself and then on the debt 
collection side. And when we are seeing--I want to give a 
specific example. Oportun makes loans to Latino immigrant 
communities in specific, and they pride themselves on that, and 
what we have found was that they are actually in Texas, in 
Florida, and in California with high populations of Latinos 
like my family, like your family, Congressman, and neighbors.
    What they are doing then on the back end is suing in order 
to collect the loans in small claims court where a borrower 
can't even take an attorney, a legal aid attorney, to help 
defend them, and they are suing.
    ProPublica published an article where in Texas there were 
47,000 lawsuits filed. Similarly, in California, tens of 
thousands of lawsuits were filed, many of these during the 
pandemic. People were being dragged into court at a time when 
they were losing their jobs.
    And so what we need to really focus on is, who are these 
lenders, how is Oportun getting away with this and calling 
themselves a responsible lender?
    The CFPB is currently investigating them, and we really 
want to commend the Biden Administration for their strong 
stance on debt collection through the CFPB and we want to 
continue to see these types of actions against predatory 
lenders.
    Mr. Garcia of Illinois. Great. Thank you so much, Ms. 
Gonzalez-Brito.
    I just have to warn you, I am going to be following up with 
you offline to compare notes on many of these community 
development issues. Thank you so much.
    Ms. Gonzalez-Brito. I look forward to it.
    Mr. Garcia of Illinois. And thank you to all of the 
witnesses. Gracias.
    Chairwoman Waters. Thank you.
    Mr. Garcia of Illinois. I yield back.
    Chairwoman Waters. Thank you.
    The gentlewoman from Texas, Ms. Garcia, is now recognized 
for 5 minutes.
    Ms. Garcia of Texas. Thank you, Madam Chairwoman, and thank 
you for this critical hearing. As a member of the Subcommittee 
on Diversity and Inclusion, I know how important this topic is, 
and I think it is great that we are doing it at the Full 
Committee level so that we can all benefit from all of the 
great information.
    I wanted to start with Ms. Gonzalez-Brito. You told 
Representative Tlaib that a banker told you directly that they 
can't make money from the Hispanic community and that is why 
our community isn't served. The only thing shocking about this 
is not that the banker would say it, but that he would say it 
out loud, and not just the hush-hush, because you know how it 
is. We know there is discrimination. It is just more quiet and 
more subtle, right?
    Ms. Gonzalez-Brito. That is right.
    Ms. Garcia of Texas. So, obviously, increasing the 
diversity of the financial sector--the Federal Reserve, the 
Home Loan Banks, the corporate board rooms, all of it--helps 
reduce that type of thinking and fosters more openness and more 
tolerance and more working together as neighbors.
    But what else can we do? Because we can't just wait for 
bankers to start changing their tune. We can't give them a B-12 
shot. We can't give them more vitamins. What can we do to 
change the way they handle business?
    Ms. Gonzalez-Brito. First of all, I do want to say that 
representation matters. It absolutely matters. But 
representation alone is not going to solve the problem, that 
anti-Blackness, White supremacy, all of this is held up by 
policies, practices, and ideology.
    So, we need to be able to really take that on head on and 
be able to start to dismantle that through policies, practices, 
and ideology.
    And so we need to be able to, through your work in the 
committee, and through your work in Congress, make policies 
that matter, and really innovative policies that are going to 
be able to move the needle. Enforcement, so policies with 
enforcement. Cancelling student debt, that does matter. I 
bought a home--I am 47-years-old, and I am not afraid to say 
that; I am proud of my years.
    But I wasn't able to buy a home until 2 years ago, and I 
took on a lot of debt to do it, and I don't know if I will be 
able to retire and still pay my mortgage.
    Ms. Garcia of Texas. We hope you can, and we hope that we 
can help you get there.
    Ms. Gonzalez-Brito. I hope I can, too. But that is the 
reality of our communities. And so, yes.
    Ms. Garcia of Texas. Right. Because I only have only about 
2 more minutes left, you mentioned something that caught my ear 
in your testimony. You talked about an equity racial audit that 
all banks should go through and all lending institutions.
    What exactly are you talking about, and if you could be 
brief because I have one more question and I want to ask Mr. 
Yang a question.
    Ms. Gonzalez-Brito. Yes. Sorry, I talk a lot.
    But this is actually Color of Change, our friends at SEIU, 
ACR, are working on this project or on this idea that banks 
should be monitored and this should actually be enforced. It 
could be a part of CRA. Are banks discriminating?
    Are they hiring, what are their diversity practices? We 
should look at whether they are actually financing White 
supremacists. Are they working with White supremacist 
organizations?
    So there is a whole host of areas that we can evaluate 
banks and we actually, after January 6th, began to think about 
sedition audits as well, and so this is a way that we can 
evaluate banks and their business practices but, really, how 
are they serving and lending and investing to Black, 
Indigenous, and people of color?
    Ms. Garcia of Texas. Right. Like my compadre, 
Representative Garcia of Illinois, I may follow up with you on 
some of these questions.
    Ms. Gonzalez-Brito. Thank you.
    Ms. Garcia of Texas. And, Mr. Yang, I wanted to ask you 
quickly, in your written testimony, you talk about the limited 
English proficiency barriers, the language barriers, the lack 
of information in the language of the person seeking the loan 
or seeking access.
    What more can we do to help? That is a big concern of mine 
with regard to Spanish-speaking communities.
    Mr. Yang. Absolutely. Thank you very much for that 
question.
    Including language, whether it is in a report or in bill 
text that includes an allocation of funding for translation, an 
allocation of funding to be directed to the community to get 
out the word, whether it is ethnic media or the like, to ensure 
that people understand, people have the materials that they 
need to understand whether it is PPP or other vaccine rollout--
all of these pieces--to make sure that we are not leaving 
limited English proficient communities behind in the relief 
efforts in these health and safety efforts.
    Ms. Garcia of Texas. Thank you, and I see I have one second 
left, so I yield back.
    Chairwoman Waters. Thank you so very much.
    The gentlewoman from Georgia, Ms. Williams, is now 
recognized for 5 minutes.
    She is not on the platform, so I am going to go to the 
gentleman from Massachusetts. Mr. Auchincloss, you are now 
recognized for 5 minutes.
    Mr. Auchincloss. Thank you, Madam Chairwoman, and thank you 
all for testifying today as part of this committee's ongoing 
effort to close the wealth gap in this country, both across 
lines of income and across lines of race.
    Housing prices are a critical issue in my district. In the 
northern part of my district, median home prices are above a 
million dollars. In the southern part of my district, they are 
a fifth of that.
    And while there is incredibly important work to do at the 
local, State, and Federal levels to liberalize zoning laws that 
allow for more housing construction as well as provide for the 
public financing of Section 8 and publicly-owned housing, I 
think we also need to address the fact that the housing 
industry has not become more efficient in the production of 
housing over the last 70 years.
    Unlike other industries, whether aerospace or agronomy, 
that have seen dramatic increases due to R&D in the cost per 
unit of production, housing has stayed relatively stagnant. 
Each housing development is done as a snowflake project where 
services are contracted for and rendered on that site as part 
of the bespoke process and there is really no incentive nor any 
investment in R&D because of that.
    Fortunately, that does seem to be changing. I know of at 
least two companies operating on the West Coast that are 
implementing vertically-integrated production of housing and 
are seeing results. They are seeing cost per key production of 
a fifth of what the going rate currently has been.
    I want to direct this question to Ms. Bailey, but others 
should feel welcome to jump in briefly. What can the Federal 
and State Governments do to create the incentives for 
innovation in lowering the costs per key for a high-quality 
sustainable housing production in the private sector?
    Ms. Bailey. Thank you for the question.
    I think you are absolutely right that we are struggling 
with creating additional affordable housing stock. There is 
some legislation that is being sponsored to really foster and 
push forward increased efforts around affordable housing stock, 
so that is one of the key things that we need to do.
    We also need to do more to spur access to small balance 
mortgage loans because that is something that we are not 
seeing, and we are seeing have a real negative impact on the 
marketplace overall.
    When you look at whole cities like Detroit, for instance, 
those cities are credit-starved. It is not just individual 
neighborhoods. It is an entire city and, in some instances, 
parts of entire regions that are credit-starved and struggling 
to get access to the kind of credit that they need.
    And then, once again, this is where those special purpose 
loan credit programs factor in. Those loans can be designed to 
really help those underserved borrowers actually get into 
communities.
    Another thing that we could see is that our Government-
Sponsored Enterprises (GSEs) are woefully underperforming in 
their affordable housing goal requirements.
    So, we could see the Federal Housing Finance Agency (FHFA) 
really increase those goals and pay particular attention to 
those goals to really help stress for them the need for the 
kind of innovative products that you talked about earlier, and 
really facilitate for them the creation and the space for those 
innovation products to be adopted, things like shared equity 
appreciation on mortgages and other very innovative things that 
are designed with the community in mind, but not designed with 
exploitation at the center and at the root, practices that are 
going to comply with our fair lending laws and comply with our 
consumer protection laws, and really help bring in those 
communities that have been long denied access and opportunity.
    Mr. Auchincloss. I appreciate those comments, and I 
absolutely hear you about the need for better access to credit, 
especially for would-be homeowners.
    There is a tremendous amount of capital that wants to go to 
work in the private sector to build housing. The housing market 
is not working, and yet the housing industry is, in some ways, 
flourishing and that disjunction is deeply concerning to me 
because the housing industry is not investing in the R&D that 
would make the housing market work better.
    And I wonder if there are criteria that need to be put into 
any Federal or State funding for new housing developments that 
require certain efficiencies to be gained over time, and that 
the cost per key is declining over time, and if you have seen 
that yet in any nonprofits that are working with HUD housing 
developers?
    Ms. Bailey. I think we have to be honest about what is 
going on in the housing sector. We actually see a real 
constriction around the quality of credit and who can get 
access to loans.
    That is part of the fundamental issue here. We see that the 
industry itself has really stepped away from home ownership, 
that most of the lenders in the marketplace today are not even 
our nation's largest banks.
    So we need to do more to really encourage them to step back 
in and to consider some of those opportunities that they need 
to be taking advantage of.
    I think those are the places that we would start to just 
really get lenders into making mortgages.
    And then, the Federal Reserve is investing about $40 
billion in mortgage-backed securities during this time. So, we 
need to see some rate refinances for low-wealth consumers.
    Chairwoman Waters. Thank you. The gentleman's time has 
expired.
    The gentlewoman from Georgia, Ms. Williams, is now 
recognized for 5 minutes.
    Ms. Williams of Georgia. Thank you, Madam Chairwoman, and 
thank you to the witnesses for joining us today.
    Financial services unlock prosperity but not everyone has 
the same key. People of color continue to have a harder time 
obtaining fair housing, getting the capital needed to start a 
business, and accessing banking and investment services. Our 
discussion today is an important step toward unlocking these 
benefits for everyone.
    Ms. Gonzalez-Brito, I would like to start with [inaudible].
    Chairwoman Waters. Did the gentlewoman raise a question?
    Ms. Gonzalez-Brito. Did I lose sound?
    Chairwoman Waters. Did the gentlewoman raise a question? 
Ms. Williams?
    Ms. Williams of Georgia. Hello?
    Chairwoman Waters. Are you there, Ms. Williams? Hello, can 
you hear us?
    Ms. Williams of Georgia. I am here. Yes.
    Chairwoman Waters. Okay. Very good. We are going to roll 
the clock back so you have your correct amount of time.
    Can we roll the clock back? If not, we will move forward 
and just let it go over. Please proceed.
    Oh, there you are. Go right ahead.
    Ms. Williams, can you hear me? She can't.
    [Pause.]
    Chairwoman Waters. Can you hear me, Ms. Williams? No. So 
what do we do?
    Ms. Williams of Georgia. Yes.
    Chairwoman Waters. You can hear me now?
    Ms. Williams of Georgia. Yes.
    Chairwoman Waters. Okay. Please, we are going to roll the 
clock back one more time so you will have all of your time. 
Please roll the clock back.
    Ms. Williams of Georgia. Can you hear me?
    Chairwoman Waters. I can hear you now. Please, go right 
ahead.
    Ms. Williams of Georgia. Ms. Gonzalez-Brito, in your 
testimony, one of your recommendations was strengthening 
protections against evictions during COVID-19. What can HUD do 
to leverage the Fair Housing Act to stop the epidemic of 
evictions of people of color?
    Ms. Gonzalez-Brito. I think there needs to be one--well, in 
terms of HUD, I will give it one second. But in terms of the 
CDC, the moratorium needs to be strengthened. There continues 
to be evictions despite the moratorium, and so that is one 
thing that needs to happen.
    In terms of HUD, I think there are too many loopholes, and 
there needs to be continued enforcement of evictions and 
eviction protections.
    Ms. Williams of Georgia. To follow on that, for Ms. 
Gonzalez-Brito, what would it mean for tenants to have a go-to 
in the Federal Government to report any illegal or predatory 
housing practices, including violations of the eviction 
moratorium? If more specific staff and resources were dedicated 
to enforcing tenant protection and conducting investigations 
for racial justice in housing?
    Ms. Gonzalez-Brito. Yes. Actually, I would like to add one 
more thing to what HUD can do, if I may? We need more HUD 
housing counseling and resources for that. We heard earlier 
from Mr. Robinson about resources being one of the solutions. 
So, we need HUD counseling services for tenants and legal 
services as well. We need more money for legal services, legal 
aid, so that people have lawyers with them when they have to go 
into court.
    And then, if fair housing counselors can investigate 
discrimination in communities themselves, that is another way 
in which tenants can be protected. If we have these kinds of 
resources, what that means is that people actually can defend 
themselves and potentially actually stay in their homes.
    We are in the middle of a pandemic, with stay-at-home 
orders, and people, when they hear, ``stay at home,'' and they 
are facing housing insecurity, that not only impacts their 
ability to be safe in the middle of a pandemic, but it impacts 
mental health. It impacts children.
    And we are talking about education and education being a 
pathway. We are talking about kids who may not even have a 
place if they have to learn from home. They might not have a 
place, a home to learn from on top of the mental health anguish 
and anxiety that comes from having housing insecurity.
    Ms. Williams of Georgia. Thank you. Fair housing, as we 
know, is critical to unlocking prosperity for people of color. 
But we also must ensure fairness in how people of color can 
generate wealth in their work.
    Ms. Gonzalez-Brito, in your testimony, you recommended that 
we can do more to facilitate small business ownership by people 
of color, and you cited access to capital as a barrier that 
they face. Would it help if there were staff and resources 
within the Federal Government dedicated specifically to 
coordinating programs that help underserved entrepreneurs 
access capital?
    Ms. Gonzalez-Brito. Absolutely. And I think access to 
capital is one of the greatest, if not the greatest barrier to 
small businesses owned by Black, Indigenous, and people of 
color. And on this, I would say that banks are not providing 
the capital. They are not making the loans under $100,000 that 
many of our small businesses need. And often, this is an area 
where it is a fair lending issue.
    And so, we need the data to be able to really understand 
what banks are doing, and we need the CFPB to staff up on this 
issue. We need the enforcement arms to be able to really look 
at the data and then see where there is discrimination 
happening.
    And as Ms. Bailey said earlier, the special credit programs 
can actually help solve this issue. So, we need resources in 
that way as well so we can target lending to communities that 
have been historically denied these opportunities. That is 
Black and Latinx communities, and Asian-American communities.
    I just want to underline what Mr. Yang said earlier around 
disaggregating that data. Are banks lending to Cambodian 
communities? Are they lending to Hmong communities? We don't 
know that unless we have that data, and it is disaggregated. 
And we urge Congress to urge the CFPB to disaggregate that data 
and make it public so that we know, and then we can be active 
in enforcing the discrimination as well and coming to Congress 
and coming to the enforcement agencies to ask for help.
    Ms. Williams of Georgia. Thank you so much.
    And I yield back the balance of my time.
    Chairwoman Waters. Thank you very much.
    Have all Members been heard?
    [No response.]
    Chairwoman Waters. If so, before closing, I have a number 
of statements to enter into the record. Without objection, the 
statements from the following organizations will be made a part 
of the record: Americans for Financial Reform; the Appraisal 
Institute; the California Association of REALTORS; the 
Financial Services Forum; Liberation in a Generation; the 
National Bankers Association; the National Council of Asian 
Pacific Americans; Prosperity Now; the Real Estate Valuation 
Advocacy Association; and the Reverend Al Sharpton.
    Without objection, it is so ordered.
    I would like to take this moment to thank all of our very 
distinguished witnesses for their testimony today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    With that, thank you so much, and this hearing is 
adjourned.
    [Whereupon, at 2:17 p.m., the hearing was adjourned.]

                            A P P E N D I X


                             March 10, 2021

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
